<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        THURSDAY, APRIL 29, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:33 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson, Pryor, and Murkowski.

                          LIBRARY OF CONGRESS

STATEMENT OF HON. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY:
        JO ANN JENKINS, CHIEF OPERATING OFFICER
        DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
        ROBERTA SHAFFER, LAW LIBRARIAN

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. Good afternoon, everyone. I think what we 
will do is we will get started, and when my ranking member 
arrives, then we will have her give any opening statement she 
would like to make.
    I want to welcome all today. We meet this afternoon for our 
fourth and final legislative branch budget hearing for fiscal 
year 2011. Today, we will hear from the Library of Congress 
(LOC) and the Open World Leadership Center.
    It is my pleasure to welcome in short order my ranking 
member. We have worked very well together, and I know we will 
continue to be able to do that, as well in the future. And I 
welcome her right now.
    And I also want to welcome our witnesses--Dr. James 
Billington, the Librarian of Congress, and Ambassador John 
O'Keefe, Executive Director of the Open World Leadership 
Center. It is good to have you, as well as Ms. Jo Ann Jenkins. 
It is good to have you gentlemen and lady here this afternoon, 
and we look forward to hearing from you.
    If it is possible to keep opening statements brief, around 
5 minutes, it would be very helpful. And of course, the rest of 
the testimony would be received for the record.
    One thing that we have established at our first three 
hearings--and I think it bears repeating--is that we intend to 
hold the legislative branch flat this year. I believe that 
spending restraints start at home, and we need to lead by 
example on this subcommittee. We can't do that by appropriating 
large increases to our agencies.
    I think the President sent the message so loudly and 
clearly in his State of the Union Address this year, noting 
that families across our country are tightening their belts and 
making tough decisions, and the Federal Government must do the 
same, he said, and he announced a 3-year freeze on nonsecurity 
discretionary Government spending.
    The President said, ``Like any cash-strapped family, we 
will work within a budget to invest in what we need and 
sacrifice what we don't.''
    And he warned further, ``If we don't take meaningful steps 
to rein in our debt, it could damage our markets, increase the 
cost of borrowing, and jeopardize our recovery--all of which 
would have an even worse effect on our job growth and family 
incomes.''
    Dr. Billington, I want to welcome you and your Chief 
Operating Officer, Jo Ann Jenkins. Sadly, I understand that Ms. 
Jenkins has accepted a position as the executive director of 
the American Association of Retired Persons Foundation. When I 
say ``sadly,'' I am not sad that you are accepting that 
position, I am sad that you will be leaving the Library next 
month.
    We appreciate the 15 years that you have been a steadfast 
presence at the Library, and of course, we wish you the very 
best. Among her many accomplishments are her work on the 
Library's Bicentennial Celebration, management and oversight of 
nine National Book Festivals, the opening of the new Library of 
Congress Experience at the Jefferson Building, and the 
completion of the Library of Congress and the U.S. Capitol 
Police merger.
    So, on behalf of the Senate, and in particular this 
subcommittee, I want to thank you for your service to the 
Library of Congress and very much wish you success and 
happiness in your future.
    Thank you.
    The Library this year is requesting $670 million for fiscal 
year 2011, an increase of $31.4 million, or 4.8 percent, over 
the fiscal year 2010 enacted level, as well as 30 additional 
full-time equivalents (FTEs). I understand about one-half of 
these new FTEs and around $5 million are for expanded research 
capabilities at the Congressional Research Service (CRS). So I 
look forward to hearing your testimony and discussing the 
particulars of your request.
    As a brief aside, I continue to hear from a number of 
organizations concerned about the performance royalties bill 
that would affect local radio stations. And I make this brief 
note here only because of the Copyright Royalty Board's 
potential role under this legislation. And along with many of 
my colleagues, I continue to oppose this bill and wouldn't 
support an attempt to attach such legislation to an 
appropriations bill, whether it is this one or any of the 
others, for that matter.
    And I also want to welcome Ambassador O'Keefe of the Open 
World Leadership Center. Ambassador O'Keefe and I had a 
pleasant experience in Lincoln, Nebraska, where he conducted an 
evening discussion of the work of the Open World Leadership 
that was not limited to Nebraskans, but many from Iowa, Kansas, 
and the surrounding areas were there as well. I thought it was 
an excellent presentation. I appreciate that.
    Ambassador O'Keefe, your budget request totals $14 million, 
an increase of $2 million, or 16.6 percent, above current year. 
I strongly support the important work done by Open World and 
its commitment to Congress and the legislative branch, and I 
look forward to hearing your testimony as well.
    Now it is my pleasure to turn to my ranking member, Senator 
Murkowski, for her opening remarks. And as I said at the 
beginning, we have enjoyed a wonderful working relationship, 
and I know that is going to continue well into the future.
    So the podium is all yours.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
it.
    And as we have gone through these series of discussions 
with the various entities that are under the oversight of the 
Legislative Branch Subcommittee, you have been very consistent 
in conveying the message that we do need to be conscientious 
about our budgets. We do need to be setting the standard, and 
we have been working together well in that regard.
    I welcome you this afternoon to the subcommittee and join 
the chairman in his comments of welcome to you, Dr. Billington. 
It is always good to see you.
    Mr. Chairman, you might not have known, but Dr. Billington 
was the star in one of our Alaska reports where he was able to 
highlight some of the collection that is housed over there in 
the Library of Congress that relates to the history of my 
State. And I think it was one of our more popular programs in 
terms of the viewership. So I commend you for that, and it was 
a wonderful learning opportunity.
    I also extend my warm welcome to you, Ambassador O'Keefe, 
and appreciate your leadership over at the Open World 
Leadership Center. Appreciate both of you being here today to 
discuss how your agencies are planning to move forward in this 
upcoming fiscal year.
    Ms. Jenkins, I join the chairman in commending you on your 
15 years of service. We greatly appreciate it and wish you well 
in your coming endeavors over at the AARP. I know that everyone 
who has had an opportunity to work with you will miss you, but 
they have appreciated all your years of service.
    Mr. Chairman, you have provided the assessment or the 
overview, if you will, of the Library of Congress budget 
request and mentioned the increase in additional full-time 
equivalents, the FTEs, 30 FTEs. I look forward to hearing why 
the Library needs these additional FTEs at this time, whether 
or not this is a permanent expansion of the Library or perhaps 
a temporary solution to a shorter-term situation.
    As far as the Open World Leadership Center fiscal year 
request, I do understand that the fiscal year 2011 budget 
request is only $100,000 over the fiscal year 2009 enacted 
level of $13.9 million, but the Center is currently living 
within the fiscal year 2010 enacted level of $12 million. So I 
am anxious to hear why the Center feels that it needs to return 
to the previous funding level. So I will look forward to 
hearing your response to that.
    And again, welcome both gentlemen and Ms. Jenkins to the 
subcommittee.
    Senator Nelson. Dr. Billington.

             SUMMARY STATEMENT OF HON. JAMES H. BILLINGTON

    Dr. Billington. Thank you, Mr. Chairman and Senator 
Murkowski.
    It is really an honor to be here to present the fiscal year 
2011 budget request of the Library of Congress just 5 days 
after the 210th anniversary of its birth as the Nation's oldest 
Federal cultural institution.
    I am accompanied, as you both noted, for the last time by 
our outstanding Chief Operating Officer, Ms. Jo Ann Jenkins, 
who will leave, as you pointed out, to become on June 1, in 
fact, president of the AARP Foundation. That happens to be my 
birthday, June 1. This is an unusual type of negative present.
    But we are grateful for all that she has done.
    Now, among those with me today for the first time are 
Roberta Shaffer, the new Law Librarian of Congress. Ms. Shaffer 
has much experience in the Library and the broader legal 
community. And two who have served the Library well for 20 
years and will assume new responsibilities in June as members 
of the Executive Committee--Robert Dizard, who will become 
Chief of Staff, and Lucy Suddreth, who will become Chief of 
Support Operations. They are both here as well.
    Now, Mr. Chairman and Senator Murkowski, recognizing the 
difficult budget environment that you have both mentioned, we 
are presenting a lean funding request, a 4.6 percent increase 
over fiscal year 2010. Fifty-eight percent of the increase is 
for required pay raises for our excellent staff and price level 
increases. Sixteen percent is for addressing urgent 
congressional needs in CRS. And the smaller remaining requests 
are largely to strengthen staff management capabilities and to 
support clear Library-wide priorities.
    These requests are mainly for people, which are urgently 
needed by an institution doing many times more work than in 
1992, but with 1,076 fewer employees. Our workforce has become 
ever more skilled and creative in order to remain the ``library 
of last resort'' and to acquire, as we have, our national and 
international leadership role in building a new electronic 
library while sustaining a traditional one and the values of 
the book culture itself.
    Mr. Chairman, the Congress of the United States has created 
and, thanks to your subcommittee and your leadership, sustained 
the largest, most inclusive, best-preserved record in one place 
of both the world's knowledge in 460 languages and America's 
creativity in all kinds of fields. In many ways, the Library of 
Congress contains our Nation's strategic information reserve, 
preserves the cultural patrimony of our free and diverse 
people, and is a lighthouse to the world for a whole concept of 
a knowledge-based democracy.
    We are now nearing completion of a focused effort that I 
initiated 10 months ago collaboratively to address Library-wide 
management requirements--a mid-course review of our strategic 
plan, strengthening governance and processes in information 
technology, and integrating the Library's Web presence into the 
central core of our work and our management structure across 
the entire Library.
    In the last 20 years of, in effect, superimposing an 
entirely new digital library on top of our traditional 
artifactual one, we have created an education-focused National 
Digital Library of 19 million items, almost all of which are 
original documents of American history and culture. We put 
online just 1 month ago in Paris a World Digital Library with 
UNESCO support, including some material from the cultures of 
all 193 United Nations (U.N.) nations.
    We now have enormous digital content and work with 170 
partner institutions in this country and 44 different States in 
leading a national program to archive important materials 
online, in accordance with our congressional mandate.
    But in the past 10 years, global book publishing has also 
increased by 40 percent. Digital information is proliferating 
virally, as we say, but it will never replace our heritage 
assets or, indeed, other new physical records that continue to 
be added to our often one-of-a-kind collections.

                          FORT MEADE MODULE 5

    Our most critical material need and highest mission 
priority this year is for Fort Meade Module 5, as requested in 
the Architect of the Capitol's fiscal year 2011 budget. We are 
already 8 years behind in the storage schedule for Fort Meade 
that we established with Congress and began implementing in 
1997. The already functioning modules are efficiently 
compacted, magnificently controlled for preservation, and have 
provided prompt, 100 percent delivery to our Capitol Hill 
reading rooms of all materials so far requested.
    This fifth module is essential if we are to sustain our 
core mission of preserving and making accessible collections 
needed both for present and for future generations. The Library 
of Congress is the only institution in the world capable of 
sustaining collections on this scale. Our key role for America 
in the information age could be compromised, perhaps 
irretrievably, if we cannot continue to acquire original 
written and published materials.
    These artifactual materials often provide the only near-
permanent records of human creativity and, unlike digital 
materials, cannot be tampered with, censored, or rendered 
inaccessible by technological obsolescence.
    Thanks to this subcommittee's wonderful support, in 
conclusion, Mr. Chairman, we already have state-of-the-art 
preservation storage not only at Fort Meade, but also in 
Culpeper at the world's biggest and best facility for audio-
visual conservation. We must continue to grow, preserve, and 
provide access to our artifactual collections if they are to 
remain usable for Congress, and we will need space to store 
them.

                          PREPARED STATEMENTS

    Thank you again for your support for the Library and for 
your consideration of our fiscal year 2011 budget.
    [The statements follow:]

             Prepared Statement of Dr. James H. Billington

    Mr. Chairman, Senator Murkowski, and other Members of the 
Subcommittee: I am pleased to present the Library of Congress fiscal 
2011 budget request.
    Mr. Chairman, I am grateful to you and the subcommittee for your 
outstanding support for our fiscal 2010 request, which included a major 
investment in an initiative to renew and restore the Library's 
technological infrastructure. Through the 2009-2010 Management Agenda 
process, which I initiated last July, we are enhancing the governance 
and internal oversight of information technology investments to assure 
the most effective use of, and maximum accountability for, these funds.
    In recognition of the difficult budget environment, we are 
requesting a total fiscal 2011 budget of $715.5 million, a lean 
increase of $31.4 million or 4.6 percent over fiscal 2010. Fifty-eight 
percent of this request is for mandatory pay and price level increases. 
The largest program element in the modest requested increase for 
critical operations is the $4.9 million needed to address urgent 
Congressional needs in the Congressional Research Service budget. Our 
requested increase of 30 FTEs is necessitated by the greatly increased 
workload of the Library during the period from 1992 to 2010, in which 
an entire digital library has been added to the traditional library 
while the level of FTEs has fallen by 1,076 FTEs to 3,770.
    The details of the Library's budget request are described in this 
statement. At the start, I want to address a subject of paramount 
importance: the Library's collections. Our most critical need and 
highest priority this year is Fort Meade Module 5--for which funding is 
requested in the AOC's fiscal 2011 budget.
    The increased importance of this unique repository of human 
knowledge is solidly based on its history. Over two centuries, the 
Congress has built its Library into the largest and most diverse 
collection of human knowledge ever assembled by one institution. The 
Library also preserves the closest thing to a mint record of America's 
creativity thanks largely to its exclusive status as the depository of 
copyrighted works. It annually collects significant world cultural and 
scholarly resources in more languages and formats than any library in 
the world. Sustaining Congress' support for the mission of this unique 
American cultural institution is more important than ever before in 
this ``information age,'' when our economy and leadership depend more 
and more on usable knowledge.
    When the original library, housed in the Capitol, was burned by 
British troops in 1814, Thomas Jefferson within a month offered his 
personal library as a replacement. The Jeffersonian concept of 
universality argued that all subjects are important to the library of 
the American legislature, and this has guided the comprehensive 
collecting policies of the Library.
    The Library of Congress is the only institution in the world 
capable of sustaining collections on this scale. We cannot foresee all 
that will be important to those who come after us. But we have 
innumerable examples of how past items we saved have proven useful 
later in unforeseen ways. We are inspired as well as informed by 
preserving the thoughts, anxieties, achievements, and aspirations of 
past generations. If we collect less and the Library's collections 
diminish, future generations will know that we deprived them of that 
open window into their past.
    I have been asked, ``When is this going to stop?'' If we want the 
Library of Congress to exist for future generations as it does for us 
today and has for generations past, it cannot, should not stop. Our 
request for Fort Meade Storage Module 5 is not about another building. 
It is about preserving our collections and protecting the very essence 
of the Library of Congress.
    I can assure you that the Library of Congress does not keep 
everything. We have carefully thought-out acquisitions policies, 
developed and updated regularly by our curators and other experts. We 
continually work to improve our collections management, including 
inventory management, and with the Congress' great support, we now have 
storage modules at Fort Meade to secure and preserve our most valuable 
items. We will continue to do everything we can to be more efficient; 
but we will continue to need more space to store the Library's growing 
collections, and we are heartened by having a 100 percent retrieval 
rate from the Fort Meade repositories to our reading rooms.
    I have also been asked why we need to sustain collections when so 
much content is available electronically. It is a myth that as digital 
content has exploded onto the scene, hard copy materials are 
significantly declining. In fact, in the past 10 years alone, global 
book publishing has increased by 40 percent, and published books are 
increasing in number everywhere except (and for the first time this 
year) in the USA. The Library has enormous digital content holdings, 
but digital information will never replace our heritage assets, the 
physical record of knowledge and creativity represented in the 
collections. And there is a need to keep hard copies of many materials 
in view of the risks of tampering and the impermanence of much digital 
material.
    The Library of Congress was established out of our forefathers' 
conviction that knowledge is important to governance. Jefferson in 
essence established our collections policy. I believe that he would 
understand why we must continue to build the collections even though we 
face challenges in being able to store them, preserve them, and make 
them accessible. For the past 210 years, the Congress has made it a 
priority, through good times and bad, to allocate resources to properly 
fund the Library of Congress--to meet its acquisition and related 
storage needs. As a result, people living today have access to an 
incredible record of knowledge and creativity.
    If we succeed in our mission, our descendents--25, 50, and 200 
years from now--will be able to benefit from what we found important to 
acquire and preserve in 2011.
    Facing both relentless technological change and ever-increasing 
demands on the Federal budget, the Library has to be both disciplined 
and creative to fulfill its historic mission of service to the Congress 
and to the American people.
    This budget request is informed by an ambitious 2009-2010 
Management Agenda that I launched in July 2009 to ensure that the 
Library's investment priorities are focused even as its programs 
reflect new ideas and solutions. We have instituted a Library-wide 
approach to updating the Library's strategic plan and aggressively 
developed coordinated plans for information resource management, 
enterprise architecture, human capital management, facilities 
management, website content, the acquisition of electronic works 
through mandatory deposit, and the creation of a culture of innovation 
at the Library.
    The Management Agenda also addresses findings from a number of 
recent internal management-related studies, including a report from an 
internal Library Committee on Strategic Direction, an Inspector General 
report on information technology strategic planning, and a Library-wide 
employee survey. The agenda will help the Library's Executive Committee 
continue to strengthen Library decisionmaking, allocation of resources, 
and accountability.
    Since its July launch, the Management Agenda has emphasized the 
development of results-oriented outcomes, broad involvement from all 
levels of Library staff and managers, and implementation of best 
practices in Library management structures and processes.
    For the Library's fiscal 2011 request, our principal requests for 
program increases are for:

Broadening Research Capacity and Enhancing Data Management Technology 
        to Better Serve Congress on Complex Emerging Policy Issues
            Broaden Research Capacity--$2.8 million
    The Congressional Research Service (CRS) requests funding and FTEs 
in fiscal 2011 to broaden its expertise and strengthen analytical 
capacity in the areas of science and technology, healthcare, financial 
economics and accounting, and social policy related to employment, 
immigration, and the work force. This funding will enable CRS to 
enhance its unique multidisciplinary analysis on the range of complex 
policy issues before the Congress. The request is the first half of a 
2-year initiative to provide the additional analytical skills needed to 
fully support the expanding needs of the Congress in these areas. This 
additional analytical capacity will also give CRS the long-term 
flexibility to adapt to rapidly changing issues and debates that will 
arise in these critical areas.

            Enhance Technology--$2.1 million
    CRS also requests funding to adapt and strengthen its information 
technology research architecture in order to meet growing congressional 
demands in almost every policy area for analysis requiring an 
increasing quantity of complex data. This funding will enable CRS to 
create and maintain a state-of-the-art information research 
architecture, establish a robust research data management (RDM) 
structure, and develop new mechanisms to deliver CRS products and 
services to its congressional clients.
Assuring Access to the Collections Now and into the Future
    The Library's fiscal 2011 budget request includes modest support 
for key operational and technological improvements that directly affect 
the delivery of core mission services. The request will support our 
newly reorganized strategic planning efforts over the last several 
years to prioritize our needs and allocation of resources.

            Acquisitions and Bibliographic Access Directorate Space 
                    Reconfiguration--$1.05 million
    The request includes support for a reconfiguration of space in the 
Acquisitions and Bibliographic Access Directorate (ABA) to realize 
efficiencies in acquiring and processing collections materials. This is 
a critical core function of the Library. Heretofore these processes 
have been based on a century-old library model. Work processes have 
been reengineered and streamlined, and now a space reconfiguration is 
needed to fully implement our new workflow model by creating 
appropriate processing areas, mail receiving areas, shelving, and 
secure housing areas.

            Collections Inventory Management--$1 million
    The requested increase in funding will also help to make inventory 
control an ongoing, core function. This funding will support the 
continuation of the baseline inventory initiative begun in 2002, as 
well as the inventory work related to the transfer of collections to 
Fort Meade. The Library is working with leaders in the private sector 
to identify and incorporate best practices in inventory control.

            Integrated Workflow and System Replacement--$1.35 million
    The Library also requests funding to take full advantage of 
technology by completing the analysis of Library Services' systems and 
workflows begun in fiscal 2009. This effort is developing a process 
management system to integrate current systems and databases, thereby 
streamlining Library-wide business functions. The Library's renewed 
enterprise architecture program will guide the development of the 
system. This request also includes support for the replacement of an 
inadequate MS DOS-based order, distribution, and accounting software 
system used by the Library's overseas offices.

            Elimination of Foreign Legal Gazette Backlog and Class K 
                    Conversion--$1.1 million
    Finally, to ensure that the law collection is both comprehensive 
and current, the Library requests funding for contractual services to 
eliminate a preservation backlog of foreign legal gazettes, as well as 
personnel resources to reclassify 610,000 volumes in the law 
collections. This reclassification will allow new legal specialists to 
search and retrieve all portions of the collections, as staff members 
most familiar with the older classification system retire.

Investing in Human Capital
            Supervisor Development--$1.05 million
    In alignment with the Management Agenda's focus on human capital 
management, the Library requests an investment in developing 
supervisors and staff, as well as funding for a Library-wide student 
loan program to support recruitment and retention of the next 
generation of Library employees. The request for funding for 
supervisory development flows in part from a Library-wide employee 
survey, which revealed the need for enhanced supervisory and leadership 
skills to develop new and existing supervisors with the skills to hire 
and cultivate a diverse and effective workforce.

            Staff Development--$1.6 million
    The Library requests funding to invest in staff development to 
address critical training gaps, and to develop and sustain a culture of 
innovation. Funding for the Library-wide student loan program modeled 
on the programs of the Congress and the Executive Branch will give the 
Library the retention and recruitment tool that it needs.

Ensuring Effective and Efficient Maintenance and Operation of the 
        Library's Public Spaces and Facilities
            Public Space Maintenance and Operations--$1.5 million
    The Library's request includes funding to support Library-wide and 
public space facility needs. The expanding workload associated with the 
greatly increased number of visitors, aging historic buildings, complex 
regulatory requirements, and broad new energy conservation initiatives 
cannot be accomplished with currently available resources. In fiscal 
2011, the Library requests support to address flooring issues in public 
spaces, including carpeting that has long ago exceeded its normal 
replacement cycle; to implement greening and energy conservation 
initiatives; to eliminate an Office of Compliance-reported workstation 
safety hazard; to modernize food service areas; and to expand the use 
of contract professional design and engineering services as recommended 
by the Office of the Inspector General.

            Furniture Inventory Management--$391,000
    In addition, the request includes funding to implement an ongoing 
contract for an automated furniture inventory and recycling system for 
furniture reuse. This funding will support the Library's highly 
successful furniture inventory and reuse pilot project, which since 
2006 has effectively reused 13,196 pieces of furniture to achieve a 3-
year savings/cost avoidance roughly ten times the annual cost of a 
furniture inventory management contract. This requested funding will 
also support a small stock of high demand, frequently needed items for 
rapid provision to offices that are experiencing losses of productivity 
because of the long lead time required for procurement processing.

Acquiring In-House IT Capability in the Electronic Copyright Office 
        (eCO) and Licensing/Royalty Distribution Systems
            Copyright Technology Office IT Support--$475,000
    In response to an increase in responsibilities related to system 
infrastructure and development support for the electronic Copyright 
Office (eCO) system on which the great majority of Copyright Office 
activities are processed, the Copyright Office requests funding to 
acquire in-house IT expertise for the system. This funding will provide 
highly skilled and experienced IT professionals to support the eCO 
system so that the Copyright Office will rely less on contract support 
for day-to-day maintenance and operations. This funding will also 
result in more detailed and efficient system implementation and 
testing.

            Licensing Reengineering Project--$790,000
    The Copyright Office also requests funding for contractor support 
to complete the implementation of the Licensing Division reengineering 
effort to automate the royalty calculations process. Reengineering 
Licensing's processes and automating the calculations process will 
improve productivity and strengthen responsiveness to both copyright 
claimants and users of the public licenses. In addition, the Copyright 
Office requests funding for IT staffing to support the reengineered 
licensing/royalty distribution system.
    The committee last year appropriately expressed concern about the 
number of copyright registration applications waiting processing. 
Through internal efforts in the Copyright Office and a recent program 
which I initiated to temporarily assign 50 other Library personnel to 
the Office, we have made a significant reduction--close to 70,000 
claims--in that backlog. Both the Register and I will continue to give 
this effort a high priority.
    In summary, senior management's extensive recent efforts to renew 
and improve governance processes and accountability across the Library 
account for our fiscal 2011 funding request to support these critical 
operational requirements and immediate congressional needs.
    Mr. Chairman and members of the subcommittee, thank you again for 
your support and your consideration of our fiscal 2011 budget.
                                 ______
                                 
               Prepared Statement of Daniel P. Mulhollan

    Mr. Chairman, Senator Murkowski, and other Members of the 
Subcommittee: Thank you for the opportunity to present the fiscal year 
2011 budget request for the Congressional Research Service (CRS). I 
would also like to describe how we align our work with that of the 
Congress to serve you most effectively and steps we are taking to 
ensure continued success in that mission.

                ALIGNMENT OF CRS WORK WITH THE CONGRESS

    CRS works closely with the Congress on a daily basis and has 
maintained this working relationship since its inception. Members know 
they can count on CRS to be nonpartisan, objective, authoritative, and 
confidential. Experts at the Service align their work with the 
congressional agenda from the moment a new issue arises and continue to 
meet the needs of lawmakers throughout all stages of the legislative 
process and across the full range of active public policy issues. CRS 
analysts examine the nature and extent of problems facing the Congress, 
identify and assess policy options, assist with hearings on policy 
proposals and on implementation of existing policies.
    We closely support the Senate in the confirmation process involving 
executive officers and judges and are currently gearing up for another 
nomination to fill a Supreme Court vacancy. A team of CRS attorneys and 
procedural experts is also assisting the Senate in preparing for an 
impeachment trial of a Federal district court judge. With high profile 
treaties on the agenda, CRS will continue its analytical support of the 
treaty ratification process. CRS brings a high level of expertise and 
institutional memory to assist with these essential constitutional 
responsibilities of the Senate.
    Highlights of the past fiscal year illustrate the breadth and depth 
of services that meet continuing congressional needs for legislative 
assistance.
    As the financial crisis peaked and the U.S. economy continued to 
stall, CRS experts focused on options for economic stimulus under 
consideration by Congress: understanding the effectiveness of Federal 
spending increases, income tax cuts, and the application of monetary 
policy. During formulation, deliberation, and implementation phases of 
the stimulus bill, the American Recovery and Reinvestment Act of 2009, 
analysts assessed how the provisions could provide stimulus, in what 
ways they could be utilized, and by whom. They addressed debt and 
deficit issues and measures of economic recovery. As Congress debated 
measures to address weaknesses of the financial system, CRS supported 
congressional efforts to reform key elements of consumer finance, 
including credit card markets, mortgage finance, and predatory lending. 
Experts studied and reported on systemic risk, resolution of problems 
of banks deemed too big to fail, mark-to-market accounting, and credit 
rating agencies. When the effects of the financial downturn began to be 
felt in other parts of the world, CRS analyzed the impact of the crisis 
on the European Union, China, Canada, Latin America, and Russia.
    The healthcare debate also saw CRS heavily involved in analyzing 
the various proposals and consulting with Member, committee, and 
leadership offices. CRS formed a health team with participants from 
several CRS divisions marshaled to provide a multidisciplinary 
perspective on this highly complex issue. Our congressional procedures 
experts also responded to many complicated procedural questions that 
arose during consideration of legislative proposals. This issue remains 
a continuing focus of CRS work.
    The President also submitted his first nomination to the Supreme 
Court last year. CRS analysts and information professionals, as in 
years past, worked closely with Senate Judiciary Committee staff in 
supporting the advice and consent process. CRS prepared analyses of 
court of appeals decisions of Judge Sotomayor and developed resources 
available on our website to assist with the hearings and Senate 
deliberation of the nomination.
    Other congressional concerns required impartial CRS policy 
analysis, such as the influence of Iran's policies on the security of 
the Middle East region, Afghanistan stabilization, and the handover of 
major security missions to Iraqi forces; unemployment compensation, job 
creation, and training needs resulting from the severity of the 
recession; food and drug safety; and responses to the potential public 
health threat of an H1N1 influenza pandemic. Additional examples of 
support include analysis of environmental and climate change concerns, 
U.S. energy security and independence; the crisis in the automobile 
industry and subsequent bankruptcies of large automobile companies and 
suppliers, the U.S. missile defense program and its technical 
capabilities, national security issues and military law regarding 
wartime detainees, and the increase of drug trafficking violence at the 
U.S.-Mexican border.
    CRS management consults with congressional leadership regularly to 
ensure that the Service's research agenda is aligned with lawmakers' 
needs. To confirm that CRS remains aligned with the Congress and 
supportive of its legislative needs, we appreciate your support for 
engaging outside expert assistance to inform and reinforce our efforts 
to align our work with the congressional agenda. We recently entered 
into a contract with LMI, a not-for-profit strategic consulting firm, 
to evaluate independently CRS's current staffing models and procedures 
to determine how effectively we are meeting our statutory mandate. LMI 
has gathered both qualitative and quantitative information from 
committees, subcommittees, Members and staff and CRS staff. We were 
proactive in contacting over 3,700 staff members by e-mail before the 
distribution of a staff survey by LMI to encourage a strong response 
rate. That effort produced a response rate with a margin of error of 
less than 3 percent for the data. LMI conducted interviews with Members 
or senior staff from 15 congressional offices and focus groups with 
staff from the House and the Senate--all groups selected using a 
stratified random sample. LMI will also report on best practices for 
research organizations geared to ensuring responsiveness to client 
needs, and assess communication channels, including a Member Advisory 
Committee, that would ensure that CRS remains aligned with the work of 
the Congress and the needs of its clients. In addition, LMI conducted 
meetings with CRS staff. We expect their final report in August.
    On January 15, 2010, CRS implemented telework for its non-
bargaining unit staff, following guidance in the conference report that 
CRS have in place by January a telework policy modeled on that of the 
Library. Following negotiations with CREA, the certified bargaining 
representative, and with the help of a mediator from the Federal 
Mediation and Conciliation Service, we reached a formal agreement on 
March 26, 2010. We will modify the telework agreement for non-
bargaining unit staff so that it conforms to the agreement reached with 
CREA, and will implement telework for all CRS staff on May 3, 2010. CRS 
has invested significant resources to set up a robust infrastructure to 
support those who seek the telework option. I believe that the telework 
policy implemented for CRS staff provides the benefits to employees of 
an additional alternative work arrangement. At the same time the policy 
preserves the ability of CRS to be there when Congress needs us and to 
remain fully aligned with the legislative agenda and your work 
patterns.

                          CRS AS SHARED STAFF

    We understand the difficult budget outlook, and CRS is prepared to 
play its part in arriving at a responsible budget for the next fiscal 
year that achieves critical agency objectives within a constrained 
funding environment. Congress faces enormous challenges in fashioning 
policy on high-profile issues such as health, immigration, the aging 
population, the conduct of two wars, burgeoning technological 
advancement, and financial restructuring. In CRS, Congress has at its 
disposal adjunct staff available to every Member and committee. This 
means that Member and committee offices need not hire the specialized 
expertise that CRS is able to retain and make available to all 
congressional offices and committees as shared staff. In difficult 
budget times, CRS offers a model that achieves economies and savings 
and at the same time affords the Congress the expertise and resources 
it needs to legislate wisely and in an informed manner with respect to 
the complex issues that confront it and the country.
    In that regard, before explaining our budget request, I want to 
discuss briefly a matter that relates to this model that Congress 
intended for CRS and the constitutional status of CRS and the Library 
of Congress. As the Library has already informed you, in February, the 
Federal district court in Live365, Inc. v. Copyright Royalty Board, 
preliminarily rejected a challenge to the Librarian's authority to 
appoint Copyright Royalty Judges ruling that it was likely that the 
Library would prevail on its argument that the Librarian of Congress is 
the head of a department who may appoint such officers under Article II 
of the Constitution. The court relied in part on an earlier 1978 case--
Eltra Corp. v. Ringer--which upheld the Librarian's power to appoint 
the Register of Copyrights. The judge noted the Eltra court's findings 
that the Library was a hybrid agency with both executive functions 
(e.g, the Copyright Office's registration function) and legislative 
functions (e.g., CRS).
    I feel that the hybrid formulation captures the original intent of 
Congress in placing CRS within the Library. Congress extensively 
debated the relationship between CRS and the Library prior to the 
creation of the modern CRS in the Legislative Reorganization Act of 
1970. At the time, it was thought ``the Library serves as a useful 
mantle for protecting the Service from partisan pressures. Furthermore, 
the effectiveness of the CRS will be enhanced by its continued instant 
access to the Library's collections and administrative support 
services.'' I believe that that rationale is still valid today and that 
the model that the Congress devised back in 1970 works. While CRS 
remains open to any change the Congress deems advisable, the overall 
relationship whereby Congress' policy research and analysis support arm 
is housed within the Library of Congress is a valuable one worth 
preserving.

                    FISCAL YEAR 2011 BUDGET REQUEST

    The CRS budget request for fiscal year 2011 is $119,919,000, with 
almost 90 percent devoted to pay and benefits for our staff. This 
request includes funding for mandatory pay increases and price-level 
increases due to inflation, added staff with specialized technical 
skills and policy expertise, and an upgraded information architecture 
supporting ready access to the many and varied data sets required for 
research. CRS continues to operate at its lowest staff level in more 
than three decades, and the small percentage of non-pay expenditures is 
limited to basic operational needs. Therefore it is necessary to 
request additional funding when investments are needed to expand or 
upgrade the capabilities of the Service to meet the growing policy 
demands placed upon Congress.
    An internal review of our capabilities to analyze the evolving and 
increasingly complex challenges facing the Congress identified gaps in 
the specialized skills needed for comprehensive multidisciplinary 
analyses and assessments. This budget request includes $2.8 million for 
17 of the 34 FTEs needed to rectify these concerns. Thirteen of these 
34 positions would enhance scientific and technical capabilities in 
areas such as energy, climate change, information technology, military 
weapons, and security and provide additional expertise in disciplines 
such as physics, engineering, and biology. Eight positions would 
provide new skills in analyzing the healthcare industry, health 
informatics, and veterans' health. Another eight positions would focus 
on financial regulatory and oversight issues with expertise in 
financial accounting and auditing, consumer financial protection, 
credit markets, and financial derivatives. The remaining five positions 
would be skilled in labor economics, demography, tax policy, and 
statistics to support the analyses of issues pertaining to employment, 
immigration, workforce, and economic well-being. This 2-year targeted 
increase in staff would require that CRS return to a FTE total that is 
only four over the level authorized in fiscal year 2007. These experts 
would have a direct impact on providing all relevant information and 
analysis needed for informed decisions.
    The budget request also includes $2.1 million to address our need 
to manage in a more sophisticated way the rapidly growing data 
necessary for authoritative analysis. We must invest in tools and 
services to establish an architecture that accommodates changes in 
technology. With this funding, CRS would create service-wide frameworks 
for data sets that would allow for efficient access to reliable data 
and full utilization of its contents. This investment would also allow 
us to employ modern content delivery capabilities, including 
interactive maps, data set mining, personalization features such as 
content tagging, and enhanced access to CRS products from mobile 
devices. Delays in this investment would cause a decline in efficiency 
and effectiveness as problems would increase due to technological 
obsolescence.

                               CONCLUSION

    This budget request identifies the resources needed for the 
talented and dedicated staff of CRS to provide the full scope of 
information and analysis that is relevant to the work of Congress. CRS 
scrutinized the plans for this spending to ensure the returns justified 
the investment in this period of difficult economic conditions. My 
colleagues and I have and will continue to examine every activity and 
program for efficiencies and reduce or eliminate costs where possible 
while fulfilling our mission. We are proud of our unique role in 
providing comprehensive, non-partisan, confidential, authoritative, and 
objective analysis to the Congress, and we thank you for your support.
    Thank you.
                                 ______
                                 
    Prepared Statement of Marybeth Peters, Register of Copyrights, 
                            Copyright Office

    Mr. Chairman, Senator Murkowski, and other Members of the 
Subcommittee: Thank you for the opportunity to present the Copyright 
Office's fiscal 2011 budget request. Today I will discuss my fiscal 
2011 budget request for additional funds and FTEs to support the 
electronic Copyright Office system and for offsetting authority and 
FTEs to complete and maintain the Licensing Division Reengineering 
effort. I will also highlight some of the Office's accomplishments and 
challenges of fiscal 2009 and 2010.

             SUPPORT OF THE UNITED STATES COPYRIGHT SYSTEM

    The Copyright Office administers the U.S. copyright law, under 
which owners of creative works register claims to protect their 
copyrights, cable and satellite companies and other users of statutory 
licenses pay royalties related to their statutory licenses, and 
publishers and other distributors of works published in the United 
States deposit copies of copyrightable works for possible addition to 
the Library's collections. Congress enacted the first copyright law in 
May 1790; in 1870, it centralized the administration of the Federal 
copyright law in the Library of Congress. The Copyright Office 
typically handles more than 500,000 copyright claims each year, 
representing well over one million works, and transfers copies of 
selected copyrighted works to the Library's collections. In fiscal year 
2009, the Office received 532,370 claims to copyright and registered 
382,086 claims. It transferred to the Library over 739,000 copies, 
valued at over $32.2 million. The Office as a whole answered almost 
360,000 non-fee information and reference inquiries and served a 
substantial number of visitors to the Public Information Office and the 
Copyright Public Records Reading Room.
    The Licensing Division of the Copyright Office receives royalty fee 
payments related to licenses that deal with secondary transmissions of 
radio and television programs by cable television systems; secondary 
transmissions of superstations and network stations by satellite 
carriers; and the importation, manufacture, and distribution of digital 
audio recording devices and media. In fiscal 2009, the Licensing 
Division collected more than $262 million in royalties from cable and 
satellite companies subject to statutory licenses, accrued more than 
$10.5 million in interest on royalties for the copyright owners, and 
distributed close to $273 million to copyright owners. The Office moved 
forward with reengineering the Licensing Division and building an 
electronic filing system.

     HIGHLIGHTS OF COPYRIGHT OFFICE ACCOMPLISHMENTS AND CHALLENGES

Addressing the Copyright Office Backlog
    As discussed in its December 31, 2009 report to you, the Copyright 
Office has been focusing on reducing the outstanding backlog of 
applications for copyright registrations. As highlighted in the report, 
the Copyright Office's backlog reduction efforts are in three key 
areas: additional staff; improved technology; and increased eService 
usage. We added over 30 Registration Specialists: 17 in spring 2009 and 
16 in January 2010. Those hired in 2009 are now fully productive; the 
class of 2010 is in training and currently productive in several 
categories of works. We improved the technology, supporting the 
processing of serial publications in the fall of 2009, through a 
combination of new hardware installation and new software. Finally, 
eService, the online copyright claims submission system, is now the 
predominant new claims filing method, accounting for over 70 percent of 
our weekly filings.
    In addition, between January and March 2010, the Librarian of 
Congress provided short term resources to assist in reducing our claims 
backlog. Fifty-one Library technicians were assigned to this effort, 
focusing on clearing over 43,000 serials (approximately 10 percent of 
our processable claims backlog); many television programs and audio 
books and more than 10,000 pre-screened performing arts/sound recording 
claims. Through the combined efforts of the Copyright Office and 
Library staff, and despite weather related closings, we achieved our 
goal of reducing the backlog by 100,000 claims. The Copyright Office is 
grateful to the Librarian and the Library as a whole in supporting our 
efforts to resolve the backlog issues.

Operations Activities
    The Copyright Office implemented its business process reengineering 
project at the end of fiscal 2007 and released eService, the electronic 
Copyright Office (eCO) online registration system, in July 2008. 
eService filings quickly displaced the use of paper applications, 
constituting 54 percent of all claims received for fiscal 2009 and 72 
percent for the first quarter of fiscal 2010.
    In addition to the backlog reduction work previously discussion, 
the Copyright Office focused on: long-term strategic improvements to 
the eCO system; modified its fee schedule; completed preparations for 
the Copyright Records Digitization Project; and as part of our 
succession planning effort, established a new leadership training 
program.
    In the Summer of 2009, the Office awarded a contract for major eCO 
software upgrade that will improve eService user processing, improve 
Copyright Office throughput time, and in a later version, provide 
automated statistics to support internal management.

            Processes
    Through a continuous improvement initiative, the Copyright Office 
further refined its reengineered processes. For instance, Registration 
Specialists proposed two changes adopted by the Copyright Office: one 
resulted in decreasing the time required for the copyright deposit 
dispatch process; the other led to improved inter-divisional 
communications, resulting in faster problem resolution. We also 
examined our mail operation and throughput times in our Receipt, 
Analysis and Control Division which resulted in improvements in data 
entry and processing of correspondence. We expect to continue our 
improvement efforts by identifying additional areas where efficiencies 
can be achieved.
    In August 2009, the Copyright Office adjusted its fee schedule to 
reflect post-reengineering operational changes. Fees associated with 
filing copyright claims were adjusted to reflect processing costs, with 
eService filings remaining at $35, and paper claims increasing to $65: 
a reflection of the increase in the cost of processing paper claims. 
eService claims are less costly: they do not require data entry and 
they require fewer quality controls. Other fee services, such as 
research or certified copies of deposits, were also adjusted to more 
closely reflect the actual costs of the service.

            Organization
    As previously mentioned, during fiscal 2009, the Office hired 17 
registration specialists. The new hires were immersed in an accelerated 
training program combining classroom instruction with actual claims 
processing in the production environment. As of this month, 16 
registration specialists achieved independence in claims processing. A 
second class of 16 registration specialists was hired in January 2010 
and is currently engaged in an accelerated training program. The 
addition of 32 new registration specialists will significantly increase 
our production capacity. Recruitment for both groups was extensive, 
with a special effort made to attract underrepresented populations into 
our workforce. The interest level was overwhelming, allowing us to 
select a high caliber of new Registration Specialists.
    In mid-2008, the Copyright Office realized the need for a good 
succession planning program and a corresponding need to implement a 
leadership training program. In the spring 2009, we launched the 
Aspiring Leaders Program with an inaugural class of 12 participants. 
This is a competitive program in which candidates from the across the 
Copyright Office were selected to participate in a series of education 
programs focusing on leadership, communications, decisionmaking, and 
strategic thinking. Participants also had detail opportunities to other 
Federal agencies including the National Archives, Smithsonian 
Institution, and offices thought the Library of Congress. Our goal is 
to offer this program to other Copyright Office staff on an annual or 
bi-annual basis.

            Information Technology
    In fiscal 2009, the Copyright Office continued to make significant 
improvements to the eCO system through periodic software development 
releases and hardware installations. The cumulative effects of these 
actions are better system performance, stability and enhanced 
functionality for both Office staff and online filers. This included 
expanding the eService capacity to accommodate up to 500 concurrent 
users and ensuring its stability through an automatic backup system 
that will operate if the primary system fails. Also, in November 2009 
the Library of Congress Information Technology Service installed a new 
computer hardware suite that resolved recurring system throughput 
issues, improving the accessibility of eCO information by the Copyright 
Office staff.
    System improvements are continuing through fiscal 2010 as the 
Office is engaged in a major eCO upgrade designed to improve eService 
customer experience, improve Copyright Office throughput time, and in 
future versions, the automated capability to provide automated 
statistical software. The project includes an upgrade to the newest 
version of the software application that drives eCO and the 
installation of new network hardware. The initial implementation, 
scheduled for June 2010, will be followed by subsequent releases 
introducing new system functionality based on feedback elicited from 
internal and external users. Expected improvements in eCO system 
performance and functionality will ultimately result in increased 
production and decreased registration processing times.
    For fiscal 2011, the Office seeks approval to hire three new highly 
skilled IT specialists to provide expertise in the areas of project 
management, business analysis, requirements definition, and system 
testing. Providing for more in-house IT support will result in direct 
and indirect cost savings by reducing reliance on contractors for 
ongoing maintenance and operations, enhancing our ability to undertake 
critical projects, improving project and resource management, and 
improving testing methods.

Copyright Records Digitization Project
    We made significant progress on our Copyright Records Digitization 
Process during fiscal 2009 and early 2010. Based on an extensive 
analysis of our existing records, we determined that, since 1870, the 
year the registration function was moved to the Library thereby 
consolidating the copyright functions in the Library of Congress, 34 
distinct processes have been employed to capture and preserve copyright 
data. Each process, from the large books signed by the A.R. Spofford, 
the Librarian of Congress in 1870, through the handwritten and typed 
card catalogue, and even a citizenship certification signed on a 
playing card, required testing to ensure the best possible image could 
be captured and stored for preservation and public use.
    Based on the analysis, the Copyright Office will undertake the 
following steps to complete the digitization task and allow full public 
access to the country's copyright records:
  --Complete imaging the Catalog of Copyright Entries (660 volumes). 
        This is a 6 month process and should be completed by the fall 
        2010;
  --Complete imaging of 2.5 million assignment cards. This should also 
        be completed by fall 2010;
  --Begin imaging the 49 million card catalogue by catalog series, 
        beginning with the most recent (1977) data and working 
        backward;
  --Begin metadata creation for imaged records to ensure public 
        searchability. This is a manual process and must be done for 
        each image; and
  --Begin the cross referencing between and integration of imaged 
        records.
    I look forward to sharing our progress on this project at future 
hearings.

Licensing Division Reengineering
    In fiscal 2009, the Licensing Division resumed its reengineering 
efforts, reviewing its current administrative practices and underlying 
technology, performing a needs analysis for future operations, and 
beginning to design its re-engineered systems. This included developing 
an operational baseline, consulting with external stakeholders and 
preparing the organization for the change process inherent in 
reengineering. The goals of this reengineering effort are to: decrease 
processing times for statements of account by 30 percent or more; 
implement an online filing process; and to improve public access to 
Office records. In fiscal 2010 the Congress authorized the Licensing 
Division to use $1.1 million from the royalty pools to cover the 
reengineering costs and associated supporting software. Earlier this 
month the Office released a Request for Proposal to support this 
effort. As part of our fiscal 2011 budget request, we requested an 
additional one time authorization of $500,000 to cover any unforeseen 
reengineering expenses. As always, any funds not expended will be 
returned to the royalty pools. We are also asking for authorization of 
2 FTEs and $285,000 to cover ongoing system costs and maintenance for 
the new information technology system.

Legal and Policy Activities (Domestic and International)
    The Office worked closely with the staff of the Senate Committee on 
the Judiciary on the reauthorization of Section 119 of the Copyright 
Act, a statutory license available to satellite services for the 
carriage of certain-over-the-air television signals, which was to 
expire on December 31, 2009. In 2008 the Office submitted its report to 
Congress on updating this license as well as two other statutory 
licenses; this report served as the beginning point of this past year's 
legislative activities. During the year much discussion ensued and the 
Senate introduce S. 1670. However, work on this legislation was not 
completed by the end of last year and since then Congress has enacted 
several temporary extensions of the section 119 statutory license.
    The Office spent significant time during the year evaluating the 
legal and business implications of the ongoing Google Book Settlement 
litigation. The Office assisted the Justice Department in preparing its 
Statement of Interest filed September 18, 2009 for the October fairness 
hearing. That hearing was postponed when the parties announced that 
they were amending the settlement agreement to address concerns that 
had been raised by a wide range of parties. An amended settlement 
agreement was filed with the court in early November and the fairness 
hearing was rescheduled for February 18, 2010. The Office once again 
assisted the Department of Justice with its second Statement of 
Interest, filed February 4, 2010. Both statements expressed concerns 
about the effect of the settlement on copyright law and policy and on 
competition. Additionally, the Office assisted the Justice Department 
in a number of court cases, including the preparation of amicus briefs 
filed with the Supreme Court concerning the interpretation of various 
provisions of the Copyright Act and filings in other cases involving 
constitutional challenges to the copyright law.
    The Omnibus Appropriations Act of 2009 mandated that the Copyright 
Office prepare a report for Congress on the copyright treatment of pre-
1972 sound recordings; this report is due in March 2011. Specifically, 
the Office has been directed to study the desirability of, and means 
for, bringing sound recordings fixed before February 15, 1972 under 
Federal jurisdiction. Sound recordings fixed before February 15, 1972 
are governed by state law which in many cases is not well defined. The 
Federal copyright law allows states to protect these pre-1972 sound 
recordings until February 15, 2067. Work on this complicated issue is 
underway, and we expect to meet our deadline.
    On the policy front, office attorneys spent considerable time in 
2009 examining the ways in which the United States provides copyrighted 
works in accessible formats to the blind, visually impaired and print-
disabled. The Office led an extensive consultation process regarding 
the operation of the U.S. exception, 17 U.S.C. Sec. 121, generally 
referred to as the ``Chafee Amendment.'' The Copyright Office website 
contains the record of this public process. The Office also conducted a 
day-long public meeting to explore the topics raised in the comments it 
received. These included: the operation of the Chafee Amendment for the 
general reading public as well as for students at the K-12 and college 
levels; the cross-border movement of accessible works for the blind and 
visually impaired; the role of technology; the role of trusted 
intermediaries; and existing systems for providing accessible versions 
of copyrighted works to the blind. The Office has worked diligently 
with other U.S. Government agencies in preparing for and attending 
meetings of the World Intellectual Property Organization's (WIPO) 
Standing Committee on Copyright, which has this issue on its agenda. 
The Office is currently working with the Library's National Library 
Service for the Blind, as well as with advocates for the blind and 
other stakeholders to explore ways to improve standards, resources and 
responsible cross border movement of works in accessible formats. 
Finally, during the week of March 8, the Office and the WIPO sponsored 
an international training program at the Library of Congress. The 
program focused on exceptions for the blind in the United States and 
other countries and consideration of a series of timely questions about 
resources, technical standards and market solutions designed to improve 
accessibility in the digital world, an area in which the United States 
has long been a leader. Attending were representatives of developing 
countries and countries in transition as well as experts from various 
parts of the world. Speakers included government and private sector 
experts from the United States and other countries. Staff from the 
Judiciary Committees of the Senate and House spoke on ``Copyright 
Policy on Capitol Hill.''
    Additionally, the Copyright Office assisted Federal government 
agencies with many multilateral, regional and bilateral negotiations 
and served on many U.S. delegations, including negotiations regarding a 
proposed Anti-Counterfeiting Trade Agreement and negotiations and 
meetings relating to the implementation of intellectual property 
provisions of existing Free Trade Agreements and Trade Promotion 
Agreements. The Copyright Office also participated as part of the U.S. 
delegation at various meetings of the WIPO.

                               CONCLUSION

    Mr. Chairman, I ask you to support the Office's fiscal 2011 budget 
request for two FTEs and additional offsetting authority to complete 
and maintain the Licensing Division Reengineering efforts and 
additional FTEs to provide long-term support for eCO, our information 
technology system.
    I also want to thank you for your past support of the Copyright 
Office reengineering efforts and its budget requests.

    Senator Nelson. Ambassador O'Keefe.
    Thank you, Dr. Billington.

STATEMENT OF AMBASSADOR JOHN O'KEEFE, EXECUTIVE 
            DIRECTOR, OPEN WORLD LEADERSHIP CENTER
    Ambassador O'Keefe. Thank you, Mr. Chairman, Senator 
Murkowski, Senator Pryor. I appreciate the opportunity to 
testify on the Open World Leadership Center's fiscal year 2011 
budget request.
    As a unique congressional center and resource, Open World 
is the dynamic catalyst for hundreds of international projects 
and partnerships that constituents have developed with emerging 
leaders from the countries of Eurasia. More than 6,000 
volunteer American families in all 50 States have hosted 15,500 
young professionals. More than 75 percent of Open World's 
fiscal year 2009 appropriation was expended on U.S.-based goods 
and services.
    Our U.S. hosts immersed these professionals in American 
life and values, contributing $1.9 million in cost shares. 
American volunteer hosts have enthusiastically stepped forward, 
keeping the demand for 2010 visitors at nearly triple our 
supply.
    In the past year, we have intensified our continuing 
efforts toward working with Senators, Representatives, and 
their staffs in coordinating programs with civic organizations 
in towns across America. We have doubled the number of Members 
of Congress who have met with our delegates. The Open World 
Board of Trustees has also directed the Center to draft a new 
strategic plan with goals that will engage Members of Congress 
and their constituents even more.
    We brought delegates from all 83 regions of Russia, all 
parts of Ukraine, from the Caucasus and central Asia. They now 
constitute 10 percent of the Russian Duma, one-third of the 
Council of Judges, and are the engines for change in fields 
from education to medicine.
    In the security sphere, for example, a Georgian Open World 
participant has been promoted to be his country's first 
``cybersecurity czar.'' As he crafts Georgia's strategy to 
thwart the emerging threat of cyber attacks, he has reconnected 
with Department of Homeland Security experts that he met on our 
program.
    In a very recent example, a Kyrgyz parliamentarian, whom 
the Montana Senate majority leader both hosted in Helena and 
then visited in Bishkek, is one of the leaders writing the new 
constitution in Kyrgyzstan right now following the April 
revolution.
    Open World offers an extraordinary ``bang for the buck'' in 
terms of efficiency, cost effectiveness, and value. The Center 
boasts an overhead rate of 7 percent, and every grant contains 
cost-shared elements. Unfortunately, to keep costs down, I had 
to let go one of our nine staff here in Washington.
    Funding at the $14 million level requested by the Board of 
Trustees will enable the Center to resume its important 
nonproliferation program, bringing nuclear experts to enhance 
working relationships not covered by other programs. We will 
expand to Armenia, Uzbekistan, and Belarus and will fund a 
full-time development expert.
    With your support, Americans throughout the United States 
will engage a promising new generation of political and civic 
leaders--parliamentarians, mayors, environmentalists, anti-
human trafficking activists, and others--in a dialogue that 
has, for example, doubled the number of Rotary Clubs throughout 
the regions we operate in and created 20 sister courts.

                           PREPARED STATEMENT

    This unprecedented congressional program has proven to be 
an exciting vehicle for linking grassroots professionals and 
emerging leaders. It helps create more transparent and 
accountable governments and expands cooperative arrangements 
between America and Eurasia.
    Thank you very much for your attention.
    [The statement follows:]

             Prepared Statement of Ambassador John O'Keefe

    Mr. Chairman, Senator Murkowski, and other Members of the 
Subcommittee, I appreciate the opportunity to present testimony on the 
Open World Leadership Center's budget request for fiscal year 2011. The 
Open World Leadership Center, of which I am the Executive Director, is 
a unique congressional center that is a resource for Members of 
Congress and their staff and constituents. It seeks to assist Congress 
in its foreign policy oversight responsibilities and aid Congress in 
interparliamentary and similar legislative activities. In this 
capacity, the Center conducts one of the largest U.S. exchange programs 
for Eurasia, through which some 6,100 volunteer American families in 
all 50 states have hosted thousands of emerging leaders from former 
Soviet countries. As a result of these exchanges, hundreds of projects 
and partnerships beneficial to all have been initiated and enhanced. 
All of us at the Center are very grateful for Congress' continued 
support, and to the Members of Congress who participate in the Center's 
Open World program and who serve on our governing board. We look 
forward to working with you, other Members of Congress, congressional 
interest groups, and volunteer hosts throughout the United States to 
set the future path of Open World.
    The Board of Trustees suggested that the Center seek greater 
congressional involvement in the Open World program and develop a 
strategic plan that makes our agency an even more valuable resource for 
the legislative branch. I am pleased to share with you that nearly one 
out of two program participants in 2009--48 percent--met with Members 
of Congress or their staff. When our board convened on February 4, 
2010, we discussed important legislative components of a new strategic 
plan for 2012-2016, and I look forward to sharing these components with 
you as we develop them.
    Allow me to update you on the Center's operations and some recent 
program accomplishments. More than 15,000 emerging leaders from Russia, 
Ukraine, Azerbaijan, Georgia, Kazakhstan, Kyrgyzstan, Moldova, 
Tajikistan, Turkmenistan, Lithuania, and Uzbekistan have participated 
in Open World. Significantly, more than 48 million Muslims reside in 
countries where Open World is active, and these countries have 
approximately 2,000 miles of shared borders with Iran and Afghanistan.
    Since its inception, the Center has awarded grants for overseeing 
our U.S. exchanges to 60 organizations headquartered in 25 different 
states and the District of Columbia. These grantee organizations host 
delegations themselves or award subgrants to local host organizations 
to do so. By 2010, well over 600 local host organizations--including 
universities and community colleges, Rotary clubs and other service 
organizations, sister-city associations, and international visitor 
councils and other nonprofits in all 50 states and the District of 
Columbia--had conducted Open World exchanges for the Center.
    More than 75 percent of Open World's fiscal year 2009 appropriated 
funds were expended on U.S. goods and services through contracts and 
grants--much of it at the local community level. American volunteers in 
48 states and the District of Columbia home hosted Open World 
participants in calendar year 2009, contributing a large portion of the 
estimated $1.9 million given to the program in the form of cost shares.
    In fiscal year 2010, Open World had a 14 percent reduction in 
appropriated funds. As a consequence, Open World terminated one of its 
most important but costliest programs, the nonproliferation exchange 
program for Russian nuclear experts and decision makers. Nevertheless, 
through cost shares, contract renegotiations, donations, and an 
interagency transfer, the Center was able to maintain the quality of 
the Open World program as well as to double the number of participants 
from the Republic of Georgia.
    The Center's budget request of $14 million for fiscal year 2011 was 
reviewed by our Board of Trustees. We will seek to fulfill our Board-
approved strategic plan to expand to Armenia, Uzbekistan, and Belarus, 
as well as to bolster our development efforts. At this level, we will 
bring 1,400 participants in calendar year 2011. We estimate that, 
again, more than 75 percent of the appropriated funds will be spent on 
U.S. goods and services, including nearly $4.5 million in direct grants 
to American host organizations. The funds will allow thousands of 
Americans throughout the United States and their counterparts abroad to 
generate hundreds of new projects and partnerships and other concrete 
results.

                       OPEN WORLD PROGRAM RESULTS

    There are many examples of solid, productive results from the Open 
World program:
    A Moscow principal who is pioneering inclusive education at her 
school instituted new curriculum activities for her students with 
disabilities--and became an advocate for Individualized Education 
Programs for special-needs students--after her 2008 Open World 
education exchange to Worcester, Massachusetts. Russian President 
Dmitry Medvedev met with this alumna and toured her institution on 
September 1, 2009, the first day of the Russian school year. The 
Russian president was impressed by the curriculum additions and by the 
alumna's point that inclusive schools like hers do not receive any 
government funding to defray the cost of the extra services provided to 
special-needs children. President Medvedev said he would have the 
Ministry of Education look into this funding issue and praised the 
alumna's school for being in the vanguard of inclusive education. The 
school visit was covered by three national TV channels.
    In agribusiness, a Moldovan alumnus, Dr. Gheorghe Arpentin, 
commenced a series of Skype online lectures recently at the request of 
North Carolina grape growers, many of whom have recently converted 
their fields into grape vineyards. The first lecture, on using organic 
viticulture, was well received; Dr Arpentin's recommendations were 
referred by members of the North Carolina Wine and Grape Council to 
North Carolina State University, where they are now being field tested 
on North Carolina soils for prospective application. Dr. Arpentin was 
recently named a deputy minister of agriculture. His second lecture is 
scheduled for late April 2010.
    This is what one of the American participants in Dr. Arpentin's 
first Skype class had to say:

    ``The SKYPE Lecture on Grape Growing by Dr. Arpentin from Moldova 
was exactly what we needed. We Americans tend to reach for `chemicals' 
to increase our crop productions. Dr. Arpentin directed us to `go 
natural with use of select rotated wild grasses' which will increase 
our yield, decrease bitterness of the grape, maximize plumpness and 
yes, save us money. With Moldova's 3,000 year history of successful 
grape growing and wine making and with Moldova's awards in the field, I 
listened closely and learned.''

    In an example touching on U.S. security interests, Open World 
Georgian delegates involved in drafting their country's personal data 
protection act met in November 2009 with House Energy and Commerce 
Committee staff members working on H.R. 2221, the Data Accountability 
and Trust Act, to discuss and compare their legislative provisions. 
Upon returning home, one of the delegates became the director of the 
Georgian Ministry of Justice's Data Exchange Agency, which is 
responsible for the nation's cybersecurity and e-government program. He 
continues to communicate with those he met on Open World, including 
representatives from the Department of Homeland Security's Computer 
Emergency Readiness Team and congressional staffers.
    At the Civil Society Summit held in Moscow last July in conjunction 
with the U.S.-Russian Presidential Summit, 12 of the 75 American and 
Russian attendees were Open World partners. All 12 now serve on working 
groups for the U.S.-Russian Bilateral Presidential Commission, which 
was created as a result of the presidential summit to explore new 
opportunities for U.S.-Russian partnership. In January 2010, a Russian 
alumnus was invited back to Washington, DC, where he had spent much of 
his 2008 Open World visit, to participate in the inaugural meeting of 
the Commission's civil society working group. The alumnus, who heads a 
nongovernmental organization (NGO) that aids homeless, exploited, and 
at-risk children and teens in Astrakhan Region, is an authority on 
child welfare issues, a major focus of the working group's first 
meeting. He is also active in advocating for Russia to create a 
counterpart agency to the Virginia-based National Center for Missing 
and Exploited Children, which he first learned about--and visited--
during his Open World exchange. This same alumnus was just appointed to 
and made chairman of the Astrakhan city election commission.
    Open World alumni are continuing to climb up the ladder into 
leadership positions while bringing about changes from the periphery in 
and the bottom up. The Open World Leadership Center tracks these and 
other such results using eight categories, or ``bins,'' such as 
partnerships with Americans, alumni projects inspired by the Open World 
experience, and benefits to Americans. Since launching a results 
database in August 2007, Open World has identified more than 3,000 
results (see attached Results Chart).

                        OPEN WORLD AND CONGRESS

    As a U.S. Legislative Branch entity, the Open World Leadership 
Center links Congress to experienced and enthusiastic citizens 
throughout the United States who are engaged in projects and programs 
in Open World countries, and actively supports the foreign relations 
initiatives of Congress. The Open World program routinely involves 
Members in its hosting activities and is responsive to congressional 
priorities. Seven of the 18 congressional members of the Commission on 
Security and Cooperation in Europe (Helsinki Commission) met with Open 
World delegates last year. The Center also regularly consults with the 
Congressional Georgia Caucus, the Congressional Ukrainian Caucus, the 
Russia Caucus, the Congressional Azerbaijan Caucus, the Congressional 
Caucus on Central Asia, the Friends of Kazakhstan Caucus, other 
congressional entities, and individual Members with specific interests 
in Open World countries or thematic areas.
    Some examples of Member and congressional staff interaction with 
Open World in 2009 and early 2010 are:
  --In February 2009, Senate Foreign Relations Committee Ranking Member 
        Richard Lugar of Indiana met with four Turkmen parliamentary 
        deputies taking part in Open World, including International and 
        Interparliamentary Affairs Committee Chairman Batyr Berdyyev. 
        They were able to compare notes on legislative jurisdiction, 
        schedules, campaigning, and staffing with Senator Lugar. The 
        group also discussed how the United States and Turkmenistan are 
        dealing with the global economic crisis, and briefly reviewed 
        Turkmenistan's proposal in the U.N. General Assembly to create 
        an international security system for transnational energy 
        pipelines.
  --In October 2009, five Tajik journalists visiting Connecticut joined 
        Senator Christopher Dodd at the award ceremony for the Thomas 
        J. Dodd Prize in International Justice and Human Rights. The 
        award was presented to the Committee to Protect Journalists and 
        the delegates had the opportunity to talk about issues related 
        to the freedom of press with the senator and other journalists 
        at the event.
  --In January 2010, Congressman David Price of North Carolina hosted a 
        group of Moldovan parliamentarians in Raleigh and then in 
        Washington, DC. The group's visit coincided with that of 
        Moldovan Prime Minister Vlad Filat to both of these cities in 
        order to further cement sister-state relations between North 
        Carolina and Moldova. The Moldovan delegates proposed and 
        discussed the idea of forming a North Carolina Caucus in their 
        parliament.
  --In September 2009, Texas Senator Kay Bailey Hutchison met with an 
        Open World delegation of Kazakhstani women leaders, including 
        Bakhyt Syzdykova, Kazakhstan's youngest member of parliament. 
        Representative Robert Aderholt of Alabama, a cochair of the 
        Friends of Kazakhstan Caucus, also met with Syzdykova and 
        discussed the idea of establishing a relationship between the 
        Alabama Youth Legislature and the Kazakh Youth Parliament. 
        Since then, we have begun making plans to bring regional 
        coordinators for the Kazakh Youth Parliament to Alabama on an 
        Open World exchange.
  --Pennsylvania Representative Allyson Schwartz, cochair of the 
        Congressional Georgia Caucus, met in November with Georgian 
        parliamentarians to discuss opportunities for future 
        collaboration with the Caucus, and Georgia's geopolitical 
        situation.
  --Open World partnered with the International Conservation Caucus 
        Foundation in co-hosting the visit of Russian environmental 
        leaders. Senators Tom Udall of New Mexico and Sheldon 
        Whitehouse of Rhode Island met with the delegation, which 
        included representatives of the Russian Duma, to discuss issues 
        related to preserving endangered species and protecting the 
        environment.
  --Open World arranged meetings with alumni leaders for the members of 
        a Senate staff delegation during their late August-early 
        September visit to Moldova, Georgia, and Russia. In Moldova, 
        the congressional staff delegation met with mayors who had been 
        hosted in North Carolina in 2007 on Open World. During this 
        meeting, the staff delegation presented the mayors with letters 
        of greeting from North Carolina State Representative Larry 
        Brown and Winston-Salem Mayor Allen Joines, who had both taken 
        part in the Moldovan mayors' Open World visit.
  --At the invitation of Chairman Eni Faleomavaega of the House 
        Subcommittee on Asia, the Pacific and the Global Environment, 
        Open World Executive Director John O'Keefe participated in 
        December in a roundtable discussion with high-ranking 
        Kazakhstani government officials about their country's human 
        rights record and chairmanship of the Organization for Security 
        and Cooperation in Europe.
    Open World plans to build on these congressional partnerships and 
to be even more active in serving Congress.

                   NONAPPROPRIATED OPEN WORLD FUNDING

    The Center, which is authorized to receive contributions from 
private sources, has redoubled its efforts to seek a wide range of 
supporters to increase and further diversify funding and strengthen the 
Open World program through cost-share partnerships. The major sources 
of nonappropriated funding are direct contributions from foundations 
and individuals, interagency transfers of funds, cost shares from Open 
World grantees and American hosts, and other forms of in-kind 
contributions, especially for Open World's alumni program, which 
receives no appropriated funds.
    In an effort to track the very generous in-kind support Open World 
receives from grantees and American citizens, the Center in 2007 
initiated a cost-share reporting requirement for all grantees 
participating in the program. We received $1.7 million in donated goods 
and services from hosts and grantees in 2008--equal to 19 percent of 
the Center's fiscal year 2008 appropriation. While the exact figure for 
2009 will not be available until later this spring, early estimates 
indicate it will be near $1.9 million.
    As an example of cost shares from grantees, Supporters of Civil 
Society in Russia (SCSR), the American partner of the prestigious 
Moscow School of Political Studies (MSPS), contributed $95,000 worth of 
lodging, meals, interpretation services, and other goods and services--
53 percent of the total U.S. programming cost--to bring one group of 20 
emerging Russian leaders nominated by MSPS to St. Louis, Missouri, in 
April 2009 and another group of 28 to Chicago, Illinois, in October 
2009 for intensive accountable governance programming. Open World 
awarded a 2010 grant to SCSR to host again in both these locations with 
a similar cost share.
    Concurrently, Open World actively seeks donations from private 
sources. In 2009, Open World Trustee Walter Scott made a 3-year pledge 
of $525,000 from his family foundation to support Open World programs. 
Under the expert guidance of our development consultant, the Center is 
also approaching other individuals and organizations interested in the 
region.
    Reciprocal visits by Americans to Open World alumni help fulfill 
Open World's mission of strengthening peer-to-peer ties and 
partnerships. These visits by American professionals, hosts, or 
grantees involved in Open World are self-funded. For example, in May 
2009, eight representatives of the League of Woman Voters, an Open 
World grantee organization, traveled to Moscow, Kaluga, and St. 
Petersburg, Russia, and discussed electoral processes and women's 
political leadership with more than 25 alumni who had been hosted by 
various chapters of the League. Numerous U.S. judges and legal experts 
involved with Open World exchanges also make independently financed 
reciprocal trips to meet with program alumni. In 2009, American jurists 
involved with Open World's rule of law program made 59 reciprocal 
professional visits to Open World countries to meet with program alumni 
and senior judicial leaders to discuss judicial reform.
    Direct contributions from individuals, foundations, and other 
private sources during the same time period totaled more than $400,000. 
A fiscal 2009 interagency agreement with the National Endowment for the 
Arts (NEA) supported all the hosting costs (up to $500,000) of the 
Russian Cultural Leaders Program.
    Finally, the Center has temporarily engaged the services of a 
development consultant. In tandem with helping define and update our 
strategic goals and agency mission statement, this specialist will help 
the Center establish an in-house capacity for fundraising.

    OPEN WORLD 2010 ACTIVITIES, 2011 PLANS, AND 2012-2016 STRATEGIC 
                                PLANNING

    Interest in the Open World program remains vibrant within the 
American hosting community. The ``demand'' for Open World visitors from 
Russia in 2010 is more than double the ``supply''--potential American 
grantees applied to host up to 1,816 Russian participants, while the 
Center will only have funding to bring 750 to the United States. For 
the 2010 Ukraine program, demand was triple the supply of available 
hosting slots, and for Azerbaijan, Georgia, Kazakhstan, Kyrgyzstan, 
Moldova, Tajikistan, and Turkmenistan, potential grantees proffered a 
total of 1,158 hosting slots, while Open World can afford to host only 
314 visitors from these seven countries.
    Open World continues this year to host in thematic areas that 
advance U.S. national interests in general, and congressional interests 
in particular, and that generate concrete results while strengthening 
the ties between American communities and their partners abroad. This 
programming emphasizes and builds on Open World's incremental successes 
in such areas as governance (focusing on the legislative branch's role 
in helping to bring about good governance and affecting public policy), 
the rule of law, human-trafficking prevention and prosecution, and 
environmental issues. This year Open World will also increase its non-
Russian programming to approximately 46 percent of its total 
programming, which is double Open World's 2007 level of non-Russian 
programming.
    One example that demonstrates Open World's commitment to supporting 
existing partnerships and initiatives is our involvement with the 15-
year-old relationship between Maryland and Russia's Leningrad Region. 
Open World has sponsored 14 Leningrad-Region delegation visits to 
Maryland since 2002, helping this sister-state partnership work on such 
substantive areas as accountable governance, education, social 
services, and the rule of law.
    In turn, the State of Maryland has funded reciprocal visits to 
Russia. In August 2009, a delegation of Maryland educators led by the 
director of international affairs of the Maryland Secretary of State's 
Office visited Leningrad Region. Then in December, an official Maryland 
Sister States delegation met in Russia with over 40 Open World alumni 
associated with this partnership and worked with government officials 
to nominate an Open World delegation of Leningrad regional legislators.
    These regional legislators were hosted for Open World in January 
2010 by the Maryland Secretary of State's Office. The delegation spent 
much of its time in the Maryland legislature, focusing on how a state-
level legislature functions and on the legislative process. Other 
programming covered such topics as legislative advocacy, lobbying, 
ethics, state taxation and fiscal structure, and economic development.
    The Center will also continue women as leaders programs, like the 
one planned in April 2010 for a delegation of women parliamentarians 
from Kyrgyzstan and Kazakhstan. Their programs will focus on women's 
issues, with the Kyrgyzstani leaders participating in Congresswoman 
Eddie Bernice Johnson's Women's Peace Initiative in Dallas, Texas, and 
the Kazakhstani leaders being hosted in Illinois by Congresswoman 
Debbie Halvorson.
    In 2010 and 2011, the Center will actively seek to host more 
regional legislators--especially legislators from Central Asia and the 
Caucasus, based on congressional interest. We will have a large pool of 
newly elected regional legislators to draw from. Rule of law 
programming for Open World countries whose judiciaries demonstrate 
continued movement towards independence will also have a focus. 
Finally, with Board approval and in consultation with the 
Appropriations Committees, the Center is prepared in 2011 to expand the 
Open World program into other countries.
    By the end of this fiscal year, the Center will have finalized a 
new strategic plan spanning 2012-2016 with a focus on making the Center 
an even more valuable resource for Congress and its constituents. There 
will be in-depth program changes to increase congressional involvement 
in Open World and focused efforts to provide support to the constituent 
hosts who have established programs and partnerships in Open World 
countries. The Board, in its preliminary discussion of the new 
Strategic Plan, suggested considering the following:
  --Ensuring that a substantial portion of future program participants 
        are legislators, either at the national, regional or local 
        level.
  --Engaging more Members of Congress to host Open World 
        parliamentarians.
  --Increasing the percentage of Open World delegations that meet with 
        Members of Congress, congressional entities, and/or 
        congressional staff to discuss issues of relevance to both 
        sides.
  --Ensuring that every delegation gains a working understanding of the 
        role of the U.S. Congress and state and local legislatures in 
        government operations.
  --Adding subthemes to Open World programming to highlight how 
        citizens and interest groups work to affect the legislative 
        process at the Federal, state, and local levels.

                    FISCAL YEAR 2011 BUDGET REQUEST

    Funding at the requested level of $14 million will enable the 
Center to fully respond to congressional interests in the region and 
beyond while continuing its proven mission of hosting young political 
and civic leaders who return home to launch projects and programs in 
cooperation with their American counterparts and hosts. The Board of 
Trustees believes that maintaining a robust grassroots-based Open World 
presence in the region is necessary and important for future U.S. 
relations in these politically significant countries.
    The budget request, in conjunction with projected donations and 
cost shares, will also allow the Center to increase hosting to a level 
of approximately 1,400 total participants. Actual allocations of 
participant slots to individual countries will be based on Board of 
Trustees recommendations and consultations with the Subcommittee and 
the U.S. Embassies in these countries. The requested funding will also 
help offset an expected decrease in prior year recovered funds and 
Trust revenue income.
    Major categories of requested funding are:
  --Personnel Compensation and Benefits and other operating expenses 
        ($1.73 million);
  --Contracts ($7.8 million--awarded to U.S.-based entities) that 
        include:
    --Coordinating the delegate nomination and vetting process,
    --Obtaining visas and other travel documents,
    --Arranging and paying for air travel,
    --Coordinating with grantees and placing delegates,
    --Providing temporary health insurance for participants; and
  --Grants ($4.47 million--awarded to U.S. host organizations) that 
        include the cost of providing:
    --Professional programming for delegates,
    --Meals outside of those provided by home hosts,
    --Community activities,
    --Local transportation,
    --Professional interpretation,
    --Administrative support.

                               CONCLUSION

    In an increasingly connected world, where citizen ambassadors on 
Main Street are conducting important work in the sphere of public 
diplomacy, Open World gives community leaders a unique institutional 
base in the legislative branch for partnering with Congress while 
providing them with the resources to succeed. As Dr. James Billington, 
chairman of the Open World Board of Trustees, stated at the annual 
Board meeting on February 4, 2010:

    ``Citizen diplomacy is becoming much more important. In an 
increasingly connected world, it is not just State Department officials 
but North Carolina farmers who now have access to a deputy minister in 
Moldova. And the Federal judge who hosts counterparts in Kentucky is 
now in direct contact with a supreme court justice in Ukraine. The 
secretary of state from Maine regularly exchanges emails with the mayor 
of Arkhangelsk, Russia. Open World helps create these and thousands 
more lines of communication.''

    Open World offers an extraordinary ``bang for the buck'' in terms 
of efficiency, cost-effectiveness, and value. The Center boasts an 
overhead rate of about 7 percent, every grant contains cost-shared 
elements, and more than 75 percent of our appropriation is plowed back 
into the American economy every year. At the local level, where the 
funds and the jobs are most needed, our delegates, as part of their 
``after hours'' Open World experience, participate in American life at 
local restaurants, cultural sites, sporting events, shopping centers, 
and other places in the community. During the professional portion of 
their local program, they not only benefit from working with their 
American counterparts, but also share their own expertise in turn. In 
this way, the Center is both a mini-stimulus plan as well as a true 
international exchange program.
    Funding the 2011 Open World program at the requested level of $14 
million will allow Americans in hundreds of Congressional Districts 
throughout the United States to engage up-and-coming Eurasian political 
and civic leaders--such as parliamentarians, environmentalists, and 
anti-human trafficking activists--in projects and ongoing partnerships. 
Americans will, once again, open their doors and give generously to 
help sustain this successful congressional program that focuses on a 
region of profound interest to U.S. foreign policy. To that end, the 
Subcommittee's interest and support have been essential ingredients in 
Open World's success.

    Senator Nelson. Thank you.
    Why don't we go to a 6-minute round of questions?

                 ACQUISITION STRATEGY AND STORAGE COSTS

    Two years ago, at our request, the Government 
Accountability Office (GAO) looked at the Library's management 
of its collections. One of their recommendations was that the 
Library develop a Library-wide strategy for making its 
collection available in electronic form, both as a means of 
providing greater access to its collections, as well as a 
substitute for physical storage.
    Now I heard what you said, Dr. Billington, about making 
certain that the original copies are available because of the 
potential of altering anything that is digitized. Is there any 
way that we can find to be able to overcome the costs of the 
actual storage of such materials? For example, is it possible 
to have, in some cases at least, fees for the ability to do 
that?
    I know in the case of copyright, the Copyright Office is 
self-sustaining in terms of the copyright fees. But that 
doesn't include the storage, ultimate storage, which is what is 
creating the challenge for us, one of the challenges that we 
have right now.
    So it is a broad question, but is there a way to overcome 
this situation because it is driving up our storage costs?
    Dr. Billington. Well, Mr. Chairman, in terms of exploring 
cost recovery as a factor, I know you have mentioned that to 
us, and I have already asked the staff to prepare a careful 
study of that. So we will get back to you in detail on that.
    On the question of storage, our authorizing committee asked 
us to look into this, and we found the company in the private 
sector that may be most analogous to the Library in terms of 
the volume of storage that they contend with and the issue of 
storage overall. Their engineers are specialists in this. This 
is Amazon we are talking about.
    Their people concluded that no meaningful solution for 
long-term effective collection management can be implemented 
until more space is created; that there is no realistic 
alternative. I could go into the reasons for this in detail.
    The modules at Fort Meade are enormously efficient for this 
purpose because of their size and ultimate scale. They contain 
enormous amounts of material already. But we add 2, 2.5 million 
analog items every year, even in the face of the digital 
explosion. There we have a shared program, national program 
with the many other institutions that I mentioned.

               ADDITIONAL SPACE FOR COLLECTIONS ESSENTIAL

    But there really is no alternative to having more space, 
and that was confirmed, as I say, by experts, objective experts 
in the private sector. There is danger in our current 
circumstance of having 200,000 books that are on the floor of 
the stacks now because we are at full capacity on Capitol Hill, 
despite the fact that we have shelving that reaches almost from 
here to Chicago, somewhere between Detroit and Chicago, if you 
put the shelves end to end. We are the only comprehensive 
collection of its kind in the world.
    Maintaining, not merely acquiring these things, but having 
them inventoried and accessible, becomes very, very difficult 
when you get this much new material in and there is no place to 
put it. You have a situation where you are going to be tempted 
to severely cut back on acquisitions. We are studying 
acquisitions, as you suggest. We did a very exhaustive study a 
couple of years ago, and we are now taking a comprehensive, 
fresh look at it.
    But there is a danger, if there is a gap in acquisitions, 
that the most recent things later will be more and more 
difficult to acquire and to afford and to make accessible. And 
that reduces the value of your collection by more than just one 
year's missing or reduced capacity, because the gaps pile up, 
and pretty soon, you lose what is an enormous advantage to the 
United States--not just to the Library of Congress and to the 
Congress and the Government itself--of having a collection that 
is comprehensive.
    Because we include in our collections items that nobody 
else acquires, and all other libraries and other research 
libraries in this country are under even more severe 
restrictions than we are these days, whether it is from the 
university, municipal, or State budgets. And so, maintaining 
the Library of Congress as the ``library of last resort,'' as 
the library that is able to answer questions that cannot be 
fully answered elsewhere, even by the vast amount of digital 
material that is available, is very important.

                   RECOUPING COPYRIGHT STORAGE COSTS

    Senator Nelson. Well, what about going to the area of 
copyright where you could not only get the copyright processing 
covered, but the ultimate storage as well?
    Dr. Billington. Yes. Well, copyright storage is included in 
the fee costs. Costs and fees are reevaluated every third year. 
So it is actually a part of the fee computation to include at 
least a percentage of the storage cost.
    There is some relief in sight in copyright despite problems 
we have had. We undertook a massive effort to bring the 
processing backlog under control; 50 people worked to help 
overcome these backlogs. But now 75 percent of registrations 
are processed electronically, and so that should help a great 
deal.
    But all collections, of course, do not come through 
copyright. Copyright is only one source. We have gifts. We have 
exchanges. We receive collections material in a variety of 
different ways and, of course, through very extensive 
purchasing. We have the overseas offices as a source not just 
for us, but for any other research library in America that 
wants to seriously keep up their foreign language collections.
    But the margin between what the Library of Congress 
provides and what any other institution provides is growing 
rather than declining. Therefore, the need to sustain this 
national resource is, I think, growing even faster than the 
necessary costs of sustaining it.
    Senator Nelson. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                            TWITTER ARCHIVE

    Dr. Billington, I would like to ask you about the new 
media. You mentioned that the number of volumes, I guess, out 
there is just growing exponentially, and we recognize that 
there is another world out there that is growing insofar as the 
level of communication. And I understand that earlier this 
month, the Library of Congress entered into a gift arrangement 
with Twitter to donate its digital archive of the public Tweets 
to the Library.
    A couple of questions for you. First of all, I am just 
coming into the world of Twitter and using it to keep in touch 
with my constituents. But the question that I would have to you 
first is a pretty basic one. How will the Library use this 
information? What will the purpose be?
    And then, second, how do you retain this archive of Tweets, 
recognizing just how much is out there? Will you archive the 
Tweets to the Library on an annual, quarterly basis? How do you 
update this digital information, recognizing the rate with 
which it will be coming to you?
    And then, finally, I am curious to know how we deal with 
the cost side of it. I assume that because the archive of 
public Tweets was donated that there is no initial cost to the 
Library, but I would have to imagine that there would be some 
cost associated with receiving or organizing.
    So if you could just speak to this, I am very curious. It 
seems like you are embarking into a bold new world where no man 
hath gone before. So more power to you, but it is kind of 
interesting to understand how we would integrate this within 
the Library of Congress.
    Dr. Billington. Well, the short answer is there are some 
short-run surprises, happy surprises in the answer to your 
question, and there are some long-run questions that we will be 
in the process of intensively examining over the next few 
months.
    A short-run surprise is that, first of all, this is a gift, 
and the preparation and delivery of it will be done by the 
Twitter company themselves. Twitter will bear the cost of 
preparing and transferring it to the Library's servers. I am 
surprised but also reassured that the cost to technically 
support the collection will be very minimal because we can 
absorb it in our existing infrastructure--the basic technical 
infrastructure.

                      ACCESS TO TWITTER COLLECTION

    Our cost of taking and storing the archive then will be 
minimal, but we will need to look into how to catalogue it, how 
to make it retrievable, while addressing privacy needs and how 
we make it accessible--this is a classic acquisitions problem. 
How we make it available would be defined by our basic 
acquisitions policy. These are all challenges that we will be 
addressing intensively in the next months. So far, for the 
initial period, this is really pretty much a gift that we can 
accommodate.
    How we make it available, how we deal with it, that is 
important not simply as it relates to this one collection. It 
is important because this is not going to be the last of the 
technological innovations. In order to continue our historic 
mission of acquiring, preserving, and making accessible the 
world's knowledge and the Nation's creativity, we must 
incorporate these new media.
    And something else, this process of studying new 
technologies and ways to make them available is part of our 
relating much more intensively the new digital world to the 
basic world of acquisitions and the core mission, the historic 
mission. There has been no change to the mission of the 
Library. The media through which knowledge and information and 
creativity in America are conveyed are going to change and keep 
on changing.
    We feel that the process of integrating the Twitter 
collection and finding out exactly how we use it, how we access 
it, and so forth will be a useful learning process for the next 
few changes and innovations. Otherwise we fall behind and 
become less comprehensive than this institution has 
historically aspired to be ever since it acquired Jefferson's 
then virtually universal library in 16 languages.
    So this is a new language, if you like. I can't tell you 
the answer, but I can assure you that we are going to be 
looking into these problems very intensively and will be 
informing this subcommittee and others here in the Congress of 
our discoveries and conclusions.
    Senator Murkowski. Well, as you point out, this is just 
kind of the beginning of the acquisition of the social 
networking media. And it will be a challenge.

                  FORT MEADE AND COMPETING PRIORITIES

    I want to go back, just very quickly if I can, to the 
storage issue that the chairman has raised, and particularly 
collection storage Module 5 at Fort Meade. In order to fund 
this at $16.9 million and recognizing that we are trying to 
balance the priorities out here, we have got to balance the 
Library's request with the AOC's request and each of the other 
agencies within the legislative branch, are there any other 
increases within your budget that you could perhaps delay so 
that you could move forward?
    Because I understand that this is the number one priority 
is the storage collection Module 5. And first of all, I guess I 
want to make sure that I am correct in that, that this is that 
high priority. And if so, is there anything else that, again, 
could be delayed in terms of taking it up this year so that we 
could help address this aspect of the storage?
    Dr. Billington. Well, there is not much question of the 
Library's priority. It is clear that in terms of the things 
that the Architect of the Capitol (AOC) is requesting with 
regard to the Library that this is by far the top priority 
because this affects core mission and continuity. We are 8 
years behind in the schedule that was agreed to way back in the 
1990s. And so, this is our priority in the Architect of the 
Capitol request.
    Now within our own budget, I have been talking with the 
Executive Committee in view of the concern about levels of 
funding. I would say that we have to have as our first priority 
sustaining core services--the mandatory pay raises and price 
level increases. I can give you a detailed scenario, if you 
want it, in writing.
    Senator Murkowski. Well, if you would help us out with 
that, Dr. Billington, and I know it is difficult to rank, if 
you will. But I think it is going to be important to us. I 
think we appreciate that from the perspective of being able to 
meet your core mission, you have got to have the storage 
capacity. You have indicated that the backlog, the 8-year delay 
in this, and we appreciate that.
    But if you could perhaps help us out, put it in writing, I 
think that that would be helpful for the subcommittee.
    Dr. Billington. Okay. Well, we will be happy to do that.
    Senator Murkowski. Thank you.
    Dr. Billington. In general, I can say that if we have to, 
if we have to balance that against our budget submission, or if 
we have to absorb the cost of living allowances (COLAs), the 
mandatory COLAs and so forth, we would have to cut, in some 
cases perhaps even eliminate, some of the other things that we 
have done in recent years. We have already looked very 
intensively at the possibilities, and we would have to probably 
reenter any such programmatic cuts for funding in the 2012 
Federal budget.
    We have not considered training for cuts; with minimal 
funding we have produced some training programs to get the most 
out of our people. It would be largely people and the people-
centered things that we would have to preserve. The demands, 
when you have so many fewer people than we have had, really are 
very great, and the need for continuous training, because of 
the sophisticated nature of our work, is very great.
    Our Chief Operating Officer has played an important role in 
developing some of these programs. I can itemize them for you, 
but we will get you a detailed study if you want----
    Senator Murkowski. I would appreciate it.
    Dr. Billington [continuing]. Of how we would proceed.
    Senator Murkowski. Thank you.
    Dr. Billington. As I say, it is in process. So we should be 
able to give that to you fairly rapidly.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Nelson. Yes, thank you, Senator Murkowski.

                        MANDATORY PAY INCREASES

    At the risk of being indelicate, would you explain the 
mandatory COLAs? If we don't have a union contract, what would 
be mandatory about COLAs or salary increases? Not suggesting 
that people shouldn't expect salary increases, but help me 
understand the structure that you are talking about.
    Dr. Billington. Well, yes, 90 percent of this is absolutely 
mandatory by law, and the rest is more or less required. It is 
very difficult to avoid it. We have very little discretion, 
except in the senior level.
    I don't have the authority to withhold or change pay 
adjustments for the 90 percent and really can't do it for most 
of the rest, except for maybe senior-level pay, which we 
wouldn't cut. It won't save you very much.
    Anyhow, I can provide more detailed legal information if 
you would like. We have looked into this quite extensively.
    Senator Nelson. Yes, it would be helpful to understand that 
because that was a new concept to me. I didn't realize--I 
didn't believe there was a union agreement. But if there is 
statutory responsibility, we obviously have to follow it. I 
would just like to know what it is. It would be helpful.
    Oh, yes?
    Ms. Jenkins. I just want to add that it isn't necessarily 
union agreements, but under title V, employees who are in GS or 
wage grade positions are automatically entitled to certain 
increases. That represents 90 percent of our staff. So the 
other 10 percent would be senior management, which is not 
mandatory. But for 90 percent, under title V, it is covered, 
according to our counsel.

                      COLLECTION POLICIES AND COST

    Senator Nelson. I understand. Okay. Thank you.
    I am intrigued by the access of the Tweets through a gift. 
I would imagine that the costs, while not necessarily involving 
the storage, would come from trying to figure out how to have 
access, protect the right to privacy, and that. Do you have any 
idea or do you have anyone looking at what that might involve 
in terms not simply of activity, but what the costs of putting 
that kind of a program in place is because we would be talking 
about something fairly sophisticated, I would assume?
    Dr. Billington. Yes, the material won't be delivered for a 
while. We will have time to examine and analyze all options. 
One of the things in addition to the management agenda that I 
established in July, is a governance board whose challenge is 
to integrate the whole digital universe directly, more directly 
into the established policies of acquisition, preservation, and 
access.
    And so, they are going to have to examine these questions 
thoroughly. I set it up in January and they have been meeting 
since February. How to provide access to electronic information 
like the Twitter collection is one of the big challenges that 
will have to be covered.
    I am not sure I heard exactly a specific question.
    Senator Nelson. Well, I realize it is probably not a fiscal 
year 2011 matter, but I suspect that it could be coming at us 
in the fiscal year 2012 budget or some future budget and am not 
suggesting that this not be accomplished. What I am suggesting 
is that we have a cost-benefit analysis that needs to be made 
on this. It is one thing to receive it. It is another thing to 
create the opportunity for access.
    Dr. Billington. Yes. It is currently estimated that a small 
team over the next 6 months will devote about 144 hours or 
under $10,000 to the details of handling the archive. I think 
that it is probably going to end up costing a little more than 
that, but we will give you clear progress reports on this.

                          WEB GOVERNANCE BOARD

    But I have set up, as I say, in January a Web governance 
board to determine and execute a Library-wide strategy, Web 
strategy for the future. That Board has been meeting, getting 
the content people and the specialists in Web matters together, 
hammering out policy options. And that is an ongoing activity. 
Unlike a lot of the management agenda, which is nearly 
completed--the eight task forces, which will shortly get their 
final reports in--this will be an ongoing enterprise, in 
addition to the team that I have just mentioned, which will not 
be very expensive.
    Incorporating the latest technologies is a challenge, but 
if we did not take this on, we would risk losing early exposure 
to what is clearly going to be an increasing communications 
phenomenon of our culture.
    Senator Nelson. Well, there is no question that it is and 
it ought to be preserved. I will have to try to figure out the 
probative value or societal utility of having access from the 
general public to the Tweets. Retaining it and preserving it is 
one thing. Creating what might be access could be not only 
costly but, I don't know, of questionable value to the average 
person. Curiosity is at a certain level, there is no doubt, but 
I don't know what the societal value would be of that for 
access. So I hope you would look at that aspect of it.
    Dr. Billington. No, our use for it--it was also conveyed to 
Google. We won't have the main responsibility to be the 
processor of every request. But how it is to be handled and if 
we have it for different purposes than they do are questions at 
this point. Google may be able to do some things that we can't 
do. They probably will.
    Our job is to do exactly what you say. It is easier to 
compute the cost than it is to define the benefits. But the 
overall benefit is one of keeping this unique repository of the 
world's knowledge and of America's creative expression, that 
deals with the phenomenon of change in our society.
    Senator Nelson. I understand, but it is not quite like a 
book you can check out.
    Dr. Billington. No.
    Thank you, sir.

                     ADDITIONAL SPECIALISTS FOR CRS

    Senator Nelson. On CRS, you are requesting 17 new FTEs for 
the Congressional Research Service to broaden the research 
expertise. How did you arrive at the number, and if funded, 
will you be requesting more FTEs for CRS in fiscal year 2012? 
In other words, is this something that is an ongoing 
requirement? Or is it a backlog of Member requests, or perhaps 
you could give some explanation as to why there would be a 
request of this size?
    Dr. Billington. I will just say one word and then give it 
to Director Mulhollan of the Congressional Research Service. 
But basically, it is a phenomenon of the reduction in staff at 
a time when the complexity and volume of requests has 
increased. So it is their analytic response to your requests. 
By ``you,'' I mean the Congress. There is a strong interest in 
scientific and technical matters that have become far more 
complex, with far more requests coming in far more frequently.
    So it is 2 years, as I understand it. It is a 2-year 
phenomenon to regain some of the very considerable amount of 
lost staffing that has occurred over recent years. But the 
Director can answer it more fully.
    Senator Nelson. Sure.
    Mr. Mulhollan. Thank you, Mr. Chairman.
    I appreciate the question. How we arrived at it is we took 
a top-down view throughout the service with regard to what the 
demands are now and what we anticipate the demands will be in 
the future, as well as our current capacity. And what that 
capacity is in a number of areas.
    What we are asking for is a total of 34 positions, 17 for 
fiscal years 2011 and 2012, which would get us back to slightly 
more than the 705 FTE level we had in fiscal year 2007. Why do 
we need to get back to that earlier level? One example is that 
13 of those positions are in science and technology. I am sure 
you both have heard about the need for increasing capacities 
and the demands on the Congress in these areas.
    Just recently, the Homeland Security and Governmental 
Affairs Committee of the Senate reported out S. 1649, which 
authorized $2 million for 3 years to increase CRS's science and 
technology capacity, as an example. This is something that the 
Congress is going to be facing. And what you have in CRS, I 
would argue, is a cost-effective tool and a shared expertise.
    You have a physicist that can work for Commerce, Science, 
and Transportation in the morning, for Armed Services in the 
afternoon, and Environment and Public Works in the evening. It 
is shared expertise. It is cost effective.
    Second, we are asking for eight researchers with expertise 
in financial regulation and the financial services industry, 
and eight on the health side. Our experience is that my 
colleagues in both those areas did not have a 2-day weekend for 
over a year. And I foresee that demand in the future.
    Because of the demands in the future, we feel that these 
are reasonable requests. I haven't asked for additional FTEs 
for CRS since fiscal year 2003, and so I hope you view us as 
being prudent with the taxpayers' hard-earned money. But we are 
looking at what Congress needs and the incredible challenges 
being faced. The shared expertise you have here is a good 
investment.
    Senator Nelson. I understand.
    Senator Murkowski. Thank you.
    Senator Murkowski. Thank you, Mr. Chairman.

                      OPEN WORLD LEADERSHIP CENTER

    I will go to Ambassador O'Keefe. I don't want you to feel 
left out here this afternoon.
    Back when we had the fiscal year 2010 legislative branch 
conference report, we included some language in that that 
encouraged the Open World Leadership Center to expand its 
effort to raise private funding in order to reduce requirements 
for appropriations, and then in this hearing last year, I had 
asked a question about outside funding sources. This was as it 
related to the United States-Russia Foundation and whether or 
not there could be a possibility of some funding to the Center.
    Can you speak, Ambassador, to the issue of any efforts to 
raise private funding to help offset some of the funding 
requirements and kind of where we are in some of these efforts?
    Ambassador O'Keefe. Yes, ma'am. I can speak to that.

                          FUNDRAISING EFFORTS

    Last year, we raised $413,000 in outside funding. For this 
year, we are projecting $619,000. So we have got a bit of a 
boost.
    With regard to foundations, we are seeking grants not only 
from the United States-Russia Foundation, but from other 
foundations. We have not yet been successful in getting those 
grants.
    In terms of more structural approach, as I mentioned, we 
reduced staff by one. I have hired an expert on a 6 month 
contract to help us find our way with a really good, solid 
funding strategy, to help us develop the kinds of basic 
materials that will have the funds manager at a foundation 
actually look at what we have.
    So I can't say that we are rolling in dough or that we will 
be rolling in outside funding next year, but I can tell you 
that we have this effort moving forward. I don't want to take 
up too much time. But I would also mention that we will seek 
funds from individual donors as well.

                  EXPANSION OF THE OPEN WORLD PROGRAM

    Senator Murkowski. Then let me ask about the Center's plans 
for expanding the exchange program into other countries. I 
think you mentioned Belarus and Armenia. I think you mentioned 
three, did you not?
    Ambassador O'Keefe. Uzbekistan was the third, Senator. Yes.
    Senator Murkowski. Uzbekistan, okay. What does it cost to 
start up a program in other areas? As far as expansion costs, 
what does this mean to the Center, and give me a little 
background there.
    Ambassador O'Keefe. Start-up costs are, depending on how we 
approach it, about a minimum of $50,000 or so to get the 
logistics contractor to function in the country. What we look 
for is whether they have existing offices. But then we have to 
pay for whatever additional staff they need.
    We have taken a slightly different approach in the latest 
expansion in Turkmenistan. We skipped the logistics contractor 
and just had the Embassy do the logistics for us. It was 30 
percent cheaper. We could do it there because the Embassy staff 
wasn't as pressed as in some of the other countries where we 
have a more robust relationship.
    I would say that entry cost is not prohibitive. We can 
manage it. The reason for the three countries is that it is not 
simply part of the strategic plan, but these three distinct 
areas--central Asia, Caucasus, and that slowly changing 
European border, which seems to move back and forth--are areas 
important to United States interests.
    And in particular, I would stress that in Uzbekistan and 
Belarus, there has been limited exchange because of strained 
relationships. Because we are a legislative branch agency and 
because we are associated with the Library, we have a much 
easier time of operating and attracting people in the program 
in those countries.
    Senator Murkowski. If you were held to the fiscal year 2010 
funding level of $12 million, how would it impact the 
operations, the staff level? Would you be able to move forward 
with these proposed expansions? Just give me some assessment as 
to what it might look like.
    Ambassador O'Keefe. Yes, ma'am.

                         FREEZE LEVEL SCENARIO

    I would say that if we are at the same amount, we are going 
to have to cover increased costs in our information technology 
(IT) contract and in our logistics contract. So to cover those 
costs, we would probably reduce numbers. Expansion would be 
held off for the time being.
    One of the things we might seek, as I mentioned, is cost 
shares. If we could find an organization to do a 50-50 cost 
share in any of these three places, we would consider it.
    Senator Murkowski. Thank you.

                     COPYRIGHT APPLICATIONS BACKLOG

    And then, Dr. Billington, I just have one last question for 
you, and this is as it relates to the Copyright Office. Can you 
give me any detail on the extent of the backlog right now 
within copyright and how you are addressing the backlog issue?
    Dr. Billington. Well, very briefly, the current backlog is 
326,000 claims. We expect to return to a normal processing 
level, 150,000 claims, by this time next year, roughly 
speaking. We realize that we were not responding as quickly as 
we had hoped and so the Library detailed at the beginning of 
this year 50 Library employees outside of copyright to make a 
kind of storming effort to reduce this, which they did very 
successfully.
    We are getting there, and the prospect of deliverance comes 
both from the fact that they have hired a lot of new people, 
and they had this big jolt from additional staff effort. But 
also, the electronic registration system now covers 75 percent 
of the claims now, up from 54 a year ago. And so, automation is 
rapidly helping address the problem, as we hoped.
    And with the few FTEs that are required to complete the 
electronic registration process, this should be a one-time 
concern that we can overcome by this time next year.
    Senator Murkowski. Good. Thank you.
    Thank you, Mr. Chairman.

             TECHNOLOGY INFRASTRUCTURE FUNDING AND PROGRESS

    Senator Nelson. Dr. Billington, in fiscal year 2010, the 
Library received $15 million for technology infrastructure 
upgrades. Can you give us an update on how these funds have 
been used and what the Library has been able to accomplish with 
fairly large investment?
    Dr. Billington. Well, the general picture is that about $9 
million of that is going to deal with the hard technology and 
the supporting software, networking software, which will 
fortify the three major data centers of the Library, which are 
the Capitol Hill complex, Culpeper, and Manassas, where the 
backups are. $3.5 million will deal with content, the content 
problem, and $2.5 million with content presentation.
    We are in the process of getting this much more precisely 
defined. But by and large, this is--that is the rough 
definition of the work. But we are in the process, as I say, of 
getting this much more exactly defined, and we will get you a 
more detailed account shortly.

                    INVENTORY MANAGEMENT OBJECTIVES

    Senator Nelson. Sure. And in the new request for fiscal 
year 2011, you have included $1 million for inventory 
management. How will this money be expended, and what will that 
accomplish?
    Dr. Billington. I am sorry, I couldn't----
    Senator Nelson. The $1 million for inventory management?
    Dr. Billington. Yes. Well, this is an ongoing process. We 
have already done a fair amount of inventory management, but it 
is a very demanding process. I can provide you with exactly 
what this request covers for the record.
    Senator Nelson. Sure. That would be fine. Does it include 
FTEs? Do you hire an outside firm to do it? I guess if you can 
give us that for the record, that would be helpful.
    Dr. Billington. No, I think we are doing it internally.
    Ms. Jenkins. I was just going to say that it is contract 
support. It is $1 million for us to do an inventory across the 
general collections in library services, but it is no new FTEs, 
just $1 million----
    Senator Nelson. So it is contract?
    Ms. Jenkins. Yes.
    Senator Nelson. That is what I wondered, yes. So no 
ongoing, it is a one-time sort of expenditure?
    Ms. Jenkins. It is ongoing funding of contract personnel.
    Senator Nelson. I see. Sure.
    Dr. Billington, in the Law Library account, there are two 
items that are being requested, class K conversion and Gazette 
preservation backlog. Is this an area where there is a 
potential for user fees to help us with the budget?
    Dr. Billington. I am sorry. I didn't quite hear that again.

                   USER FEES AND LAW LIBRARY SERVICES

    Senator Nelson. There are two items in the Law Library in 
the fiscal year 2011 budget request. One was called class K 
conversion and Gazette preservation backlog. In connection with 
your answering those questions, I have the other question of 
whether this is an area where we might access some user fees, 
the Law Library?
    Dr. Billington. Well, that is a complicated question. You 
have the whole question of the user fees. The Library of 
Congress, by and large, does not do that. Many other libraries 
do, but we don't do that. When I sign for an acquisition, for 
anything for the Library, I don't sign for the Library of 
Congress. I sign for the United States of America. And I am 
basically committing our resources to preserving it and making 
it accessible.
    Now if you get into the user fee business, you end up 
drifting your talent inevitably toward somebody's user fee. But 
the users are the entire people of the United States. Of 
course, in the first instance, the Congress itself. And so, 
that is an area we are reluctant to get into. But what you have 
with this request is something of rather great importance to 
the Congress and the Government and to the judiciary, for that 
matter, and the executive branch, which is to have the up-to-
date Gazettes, which are the basic laws of other countries.
    Law collections have already been catalogued before 
completion of the K classification, but they are not accessible 
because the people who know both the old system and the new are 
retiring. We must complete the K class conversion. The legal 
community has been agitating about this, and you may want to 
consider the arguments they have made.
    The new head of our Law Library has great experience both 
in the private sector and in the public sector. Do you want to 
have a word here?
    Ms. Shaffer. Yes, thank you, Senator. Good afternoon.
    The issue here really is making this collection easily and 
immediately attainable when you, the Members of Congress, need 
the material. And in its current format, it is either fragile 
because of its physical properties or it is inaccessible 
because it isn't organized in a way that makes it quickly 
available.
    And so, the purpose of both of these projects is to 
accomplish a stability for the Gazettes so that we will have 
access to them whenever you need them, and particularly for 
many jurisdictions where the Gazette is the only resource, 
where there are no commercial resources that duplicate what is 
there.
    And in the case of the K class, it is kind of like thinking 
of going to a grocery store and not having the different 
categories of food organized by category. So it makes it very 
inefficient and could lead to an inability to find things on a 
timely basis for Congress, our key client and customer.
    Thank you.
    Senator Nelson. Thank you.
    Dr. Billington. I have to say, the legal community has been 
very concerned about the K class conversion, and this is an 
area where, while one doesn't want to get into the business of 
charging fees, if there were some donations on the part of a 
committee of this kind, we have ample opportunity to receive 
donations and use them directly for this purpose.
    Senator Nelson. You aren't going to be waiting very long 
for generous lawyers, are you?
    I understand.
    Well, thank you very much, all of you. I want to thank our 
witnesses for joining us today. It has been a very informative 
hearing.

              LIBRARY BUDGET OFFICER EMPLOYEE OF THE WEEK

    And before we recess, I would like to acknowledge one more 
person from the Library of Congress staff, the Library's Budget 
Officer, Ms. Mary Klutts, and to congratulate her for being 
honored as one of Senator Kaufman's Federal employees of the 
week. We thank you for your many years of hard work.
    And we know that you will provide many more, and we also 
appreciate the fact that Senator Kaufman recognized you for it.

                     ADDITIONAL COMMITTEE QUESTIONS

    Any additional questions from members will be submitted to 
you for response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Library for response subsequent to the 
hearing:]

               Questions Submitted by Senator Ben Nelson

                              FLAT BUDGET

    Question. I am committed to a flat budget in fiscal year 2011. What 
could the Library do to assist me in obtaining that goal? Have you 
considered options within the Library for recovering any of your costs?
    Answer. The Library has actively pursued opportunities to offset 
costs through reimbursable services over more than 20 years, 
significantly building its range of fee-supported programs and services 
over those years by both statute and policy.
    The Library administers its fee-based activities under the 
authority of 2 U.S.C.182b-c and 2 U.S.C. 150, which enable the Library 
to recover the costs associated with specific services provided to 
customers and the general public:
  --The operation of a gift shop and other sales of items associated 
        with collections, exhibits, performances, and special events of 
        the Library of Congress for public visitors and other 
        individuals or organizations;
  --Document reproduction and microfilming services for researchers, 
        libraries, government agencies, and other entities in the 
        United States and throughout the world;
  --The sale of Library of Congress cataloging data and related 
        publications to libraries and information service organizations 
        and individuals in the United States and throughout the world;
  --The procurement of commercial information services, publications, 
        and library support services, as well as related education and 
        information services, for Federal libraries and information 
        centers (FEDLINK program);
  --Customized research reports, translations, and analytical studies 
        for a fee for entities of the Federal Government and the 
        District of Columbia on a cost-recovery basis. The products 
        derived from these services make the Library's vast collections 
        available to analysts and policy makers throughout the Federal 
        and District of Columbia governments, maximizing the utility of 
        the collections through the language and area expertise of the 
        Federal Research Division staff.
  --Preservation, duplication and delivery services for the Library's 
        audiovisual collections, including motion pictures, videotapes, 
        sound recordings, and radio and television broadcasts.
    However, charging fees for public services that traditionally have 
been ``free'' presents challenges. In 2007 the British Library proposed 
new fees for basic services such as reading room use. The proposal met 
with widespread public dissent which included public protests. The 
British Library ultimately did not implement the proposed fees. The 
British Library does charge for services that add value to their core 
work for the public good, as does the Library of Congress. The services 
for which the British Library charges are defined by law, the British 
Library Act 1972, as is the case with the Library of Congress, and 
include content reproduction, retail gift shop operations, and document 
delivery. As with the Library, these services largely cover costs and 
do not have sufficient market scale to generate substantial profit.
    In fiscal 2009, Library Services reorganized the Office of Business 
Enterprises. This program consolidates the business operations of three 
cost-recovery services to create economies of scale and cost 
efficiencies. Examples of efforts that will provide additional service 
to Congress and the public while also reducing and recovering costs 
include: network printing in the Library's reading rooms, print-on-
demand for Library publications, digital reproduction of collections, 
and cooperative agreements with external entities.
    Question. Is cost-sharing a possibility in any of the services you 
provide? Could you consider additional charges for copyright services 
to offset the costs associated with storage of the items; perhaps to 
charge more for larger items requiring more storage?
    Answer. The Library provides a number of services on a cost-sharing 
basis, as indicated in the answer above. The Copyright Office, in 
addition, engages in cost-sharing with respect to most of its services 
to the public. Section 708 of the Copyright Act directs the Office to 
set its fees for services at ``not more than that necessary to cover 
the reasonable costs incurred by the Copyright Office for the 
services.'' The fees ``shall be fair and equitable and give due 
consideration to the objectives of the copyright system.'' Copyright 
fees are periodically evaluated and adjusted following an activity-
based costing methodology. Because the Copyright registration system is 
voluntary and because it is in the public interest to encourage 
registration so that authors and copyright owners can be identified, 
fees are set at levels that are intended to encourage registration 
while recovering as much of the cost of the service as is possible. The 
current registration fee covers most but not all of the cost of 
performing that service, including the cost of physical storage of 
deposits. The annual appropriation of the Copyright Office supports 
service-related activities not recovered by fees and other costs not 
related to fee services. Fees for services that are performed only for 
the benefit of the person paying the fee are set at or near full cost 
recovery. In August 2009, the Copyright Office adjusted fees to reflect 
its new reengineered processes. Typically, fees are adjusted every 3 
years.

                         COLLECTIONS MANAGEMENT

    Question. Two years ago, GAO looked at the Library's management of 
its collections. One of GAO's recommendations was that the Library 
develop a Library-wide strategy for making its collection available in 
electronic form--both as a means of providing greater access to its 
collections as well as to substitute for physical storage. In response, 
the Library developed a preliminary digitization strategy. What is the 
current status of the Library's digitization strategy?
    Answer. The Library's digital strategy guides all efforts to add 
digital content to the collections Library-wide. The Library now has 
enormous digital content holdings, however digital information is not 
viewed as a replacement for the physical record of knowledge and 
creativity represented in the paper-based collections. Our digital 
strategy recognizes a need to maintain hard copies of many materials in 
view of the impermanence of digital material. While we expect an 
increasing percentage of the materials we collect will come to us in 
electronic form in future years, the current reality is that the 
production of physical materials has not slowed, and there is little 
overlap between our physical and digital collections. Expanding our 
digital content holdings will not result in a reduced requirement for 
physical storage space.
    Question. The strategy indicated that the Library would design a 
study to examine the feasibility of substituting digitized content for 
physical storage. Has such a study been conducted? If so, what were the 
results?
    Answer. The Library's study of this issue has shown that digital 
preservation technology serves immediate access needs, however 
digitized content is vulnerable to silent and virtually undetectable 
loss over time. While a digital collection can be stored in a 
relatively small space, hacking, user error, technological failure, and 
future migration to new formats and platforms could have the same 
devastating effect of a fire on such a collection. Libraries and the 
Library have largely eliminated the catastrophic effects of fires; they 
have not been able to eliminate the technological risks posed to 
digital collections. Almost universally, preservation experts have 
questioned digitized content as a safe medium for passing the nation's 
intellectual legacy onto the next generations. The Library is working 
actively to address the technical challenges of digital preservation.
    Question. Two possible options to reduce physical storage 
requirements are (a) changing the requirements for copyright deposit to 
allow for electronic formats as ``best available,'' and (b) maintaining 
the second required deposit copy in electronic form. To what extent 
have you looked into these two options?
    Answer. The Library is actively pursuing deposit of electronic 
works. We are looking at recommending changes in the Copyright law so 
that the ``best edition'' requirement can be modified or replaced to 
permit the submission of electronic copies even when the only copies 
that are ``published'' are in non-electronic formats, or to permit the 
submission of one electronic copy and one non-electronic copy in such 
cases. Such a change would be subject to consultation and input from 
copyright owners (i.e. publishers). The Library is also working on an 
e-Deposit system to address several important needs. Chiefly, an 
electronic submission service is essential to provide the technological 
infrastructure needed to support electronic submissions. While we are 
currently in the developmental stages of this effort, we expect to have 
an operational system for the receipt of electronic serials within a 
year. We will doubtless learn much from this experience, and we intend 
to incorporate the lessons learned in the development of a similar 
system for the deposit of monographic materials.
    Question. According to the preliminary strategy, an increasing 
volume of deposits are ``born digital.'' How has this been factored 
into future demand for physical storage?
    Answer. At present, the rise of digital publishing has not been 
accompanied by a decrease in print publishing; hence there has been no 
reduction in the need for physical storage. If the output of print 
publications diminishes substantially in coming years, the Library's 
need for additional space will correspondingly be reduced.
    Question. The Library's strategy also lays out ambitious goals for 
building and securing an IT infrastructure, which this subcommittee 
funded last year. How will the Library use this technology to achieve 
greater efficiencies through reduced need for physical storage?
    Answer. Enhancements to the core IT infrastructure will not 
directly lead to greater efficiencies through reduced need for physical 
storage. Information technology tools and services are utilized in ever 
more effective ways to provide discovery of and access to the Library's 
digital content. This infrastructure can lead to greater efficiencies 
for internal operations and enhanced access for remote users, but it 
has little impact on the need for physical storage.

                                STORAGE

    Question. I feel that we cannot continue to take in the current 
volume of items without recovering some of the costs for their storage 
and I feel strongly that this is something we need to look very 
carefully at. I know one of your top priorities for fiscal year 2011 is 
funding the construction of book storage module 5. This is going to 
difficult to accomplish in a flat budget year as I have committed to 
this year. Are there any items you'd be willing to cut from your budget 
to fund this project?
    Answer. In the event of a flat budget, the Library already will 
have to absorb $18 million in mandatory pay and price level increases--
costs that we are statutorily required to pay. The Library could absorb 
the cost of mandatory pay and price level increases through a 
significant reduction of base programs, specific options that we are 
investigating. If the Library were to further identify a funding source 
within its base for Fort Meade Module 5, this would very likely have an 
impact on staffing.
    Question. Are storage modules 1-4 currently at full capacity? When 
do you expect to have them completely utilized?
    Answer. Module 1 has been completely filled since late 2005. Module 
2 will be completely filled within the next 2 months. Extensive 
planning has been done over a period of years to ensure that every inch 
of space in Modules 3 and 4 is fully and effectively utilized to store 
non-book, special format collections. A detailed blueprint of every 
shelf and what will be placed on each shelf was developed and will 
serve as the guide to the placement of each of 237,000 trackable 
containers of special collections items. The Library has embarked on a 
3 year transfer program to complete the filling of Modules 3 and 4. By 
the close of fiscal 2010, 25 percent of the trackable containers will 
have been moved to Fort Meade, with the remainder to follow over a 
period of 18-24 months.
    Question. What efforts are being made to streamline your 
acquisition process so that we are getting the best ``bang for our 
buck'' in terms of the utilization of limited storage space?
    Answer. The Library has taken steps to address and reaffirm is 
collecting policies and to assure that they continue to be in the best 
interests of the Library, Congress, and the American research and 
general user communities, carefully revising its Collections Policy 
Statements to assure that it was continuing to collect and retain only 
appropriate materials for the collections. The revised statements take 
into account the emergence of digital content and the acceptance of 
digital content over print or other formats where appropriate. In 
addition the Associate Librarian for Library Services has begun to work 
with staff to consider the number of copies of individual works to 
retain for the collections in the digital age.
    The Library also has issued a new regulation governing the 
mandatory deposit of copyrighted electronic serials available online 
that will allow the Library to determine if it can accept digital 
serial content instead of print. The outcome of this phase of mandatory 
deposit for digital content will set the stage for expanding to other 
formats of digital content.
    The Library has undertaken an ambitious plan to restructure the 
massive exchange program (International Exchange Service--IES) that 
provides access to documents produced by more than 120 other national 
government agencies and international bodies. IES is being revamped to 
allow the Library to have online access to this content of foreign 
governments that is so invaluable to Congress and the legislative 
process. As part of review of IES, new agreements have been forged that 
have already reduced the number of print titles shipped to the Library 
in favor of remote virtual access.
    Library Services has been working to develop a plan to establish a 
central unit devoted to collections development. This unit will have 
responsibility for advising the Librarian and the Associate Librarian 
on acquisitions policies, helping to ensure that defensible 
acquisitions are being made. In June the Librarian will convene the 
annual meeting of key acquisitions and recommending managers and staff 
to discuss items acquired over the past year. At this meeting as in 
past years, he and the Associate Librarian will reaffirm that staff are 
adhering to sound acquisitions policies.

                                  CRS

    Question. You are requesting 17 new FTE for the Congressional 
Research Service to broaden research expertise. How did you reach this 
number? If funded, will you be requesting more FTE for CRS in fiscal 
year 2012? What prompted you to request a large increase in staffing 
for CRS? Is there a backlog of member requests?
    Answer. CRS research managers identified gaps in specialized skills 
that cannot be resolved by reassigning positions or retraining staff. 
Full analytical support for the complex emerging issues facing Congress 
will require 34 new positions. Half of this increase is requested in 
fiscal year 2011 with the remainder expected to be included in the 
fiscal year 2012 budget request. This request is prompted by the need 
to broaden expertise and strengthen analytical capacity in the critical 
areas of science and technology, healthcare, financial economics and 
accounting, and social policy related to employment, immigration, and 
the workforce. There is no backlog of member requests. However, CRS not 
only responds to congressional inquires but must anticipate 
congressional needs to provide the research and analysis when Congress 
requires it. This request would help alleviate workload issues but the 
primary benefit is producing more comprehensive and sophisticated 
analyses of increasingly complicated issues.
    Question. You are also requesting $2.1 million for ``information 
technology research architecture'' for CRS. This Committee provided $15 
million for information technology upgrades library-wide in fiscal year 
2010. Can you explain this new request?
    Answer. The increased funding in fiscal year 2010 for library-wide 
information technology upgrades did not include the information 
technology research architecture that is unique to CRS. Improvements 
are needed in research data management due to the increasing number of 
large complex datasets needed to produce authoritative multi-
disciplinary analysis. The $2.1 million investment will provide the 
expertise and systems (hardware and software) to efficiently access 
reliable data and information from a CRS-wide data library that is 
constructed to allow full utilization of its contents. It will provide 
modern content delivery technologies including interactive maps, data 
set mining, personalization features such as content tagging, and 
enhanced access to CRS products from mobile devices.
    Question. Dr. Billington, when prioritizing your request, how would 
you rank your request for new CRS personnel?
    Answer. The request for new CRS personnel ranks third in the 
Library's priorities for fiscal 2011, after funding for mandatory pay 
and price level increases and funding for Fort Meade, Module 5.

                              LAW LIBRARY

    Question. Please explain the two items you are requesting for the 
Law Library. (Class K Conversion and Gazette Preservation backlog).
    Answer. The Library has requested $353,000 and 3 FTEs over 10 years 
to complete the classification of the legal collections for the 
following reasons:
  --The Class K standard expanded the shelving arrangement according to 
        jurisdiction, subject, form, author, and year to create a 
        unique classification number for each title.
  --Since it is difficult to find contractors with the necessary 
        experience in legal cataloging, legal publishing, and the law, 
        the Law Library must rely on its established staff base.
  --Limited staffing to support the conversion of titles acquired 
        before the implementation of the Class K system has resulted in 
        610,000 volumes remaining unclassified.
  --Until classified, legal materials remain mostly invisible and 
        inaccessible, yet these materials have critical research 
        importance in a global environment.
  --In order to cope with the Library managing two distinct collections 
        (K-classed and unclassified), two different systems for 
        shelving materials have been used. Staff members knowledgeable 
        about the two systems are retiring. As a result, materials are 
        more difficult to find.
    The Library has requested $760,000 over 3 years for microfilming 
official gazettes, to eliminate the Gazette preservation backlog:
  --Most nations publish their newly effective laws, regulations, and 
        treaties in newspaper form known as official gazettes--a source 
        of legal documentation essential to a comprehensive, 
        authoritative law collection.
  --Due to the volatility of newsprint, the Law Library uses microfilm 
        as a means of preservation. In the past, the Law Library had 
        partners sharing the cost of preserving the gazettes. However, 
        the loss of these partners has resulted in a 5.3 million-page 
        backlog.
  --The inability to keep up with this preservation workload will 
        result in future permanent gaps in the Law collection, and will 
        adversely impact the usability and veracity of the Law Library 
        collection for research.

                           STAFF DEVELOPMENT

    Question. What is included in the $1.6 million Staff Development 
Program you are requesting?
    Answer. This request supports substantially expanded loan repayment 
and tuition reimbursement options for the Library to attract and retain 
the top talent needed to operate in today's dynamic operating 
environment. Such flexibilities are accepted practice in other 
government agencies.
    A formal training needs assessment conducted across the Library 
revealed common agency training priorities that could be more 
efficiently addressed by consolidating expenses through delivery of 
centralized training. Currently the Library operates an award-winning 
staff development program that trains 60 staff members per year. With 
the requested funding, the Library plans to expand the developmental 
opportunities available to the entire Library staff population. There 
is a particular need for training to help the Library's multi-cultural, 
multi-generational staff improve customer service and collaborative 
skills to keep up with technological advances and the changing work 
environment. This request also enables the Library to offer staff 
career planning services, another critical and long-standing need 
articulated by the Library's labor organizations.
    Question. What is the Supervisor Development Program you are 
requesting $1.048 million for?
    Answer. The Library has requested $1.048 million and 3 FTEs as part 
of a centralized training and development program. The Library's 
current Supervisor Development Program requires centralized funding to 
provide essential training to supervisors Library-wide. Individual 
Service and Support Units have not been able to consistently fund all 
the elements of required foundational training that apply to all 
supervisors. The Library recently established quarterly Supervisor 
Forums for all managers and supervisors to share information, 
initiatives, clarify questions, and share best practices for 
effectively supervising and managing staff at the Library. These 
forums, along with other supervisor focus groups, feedback from 
existing supervisory courses, and the Library-wide Employee Survey 
results have all indicated a clear need for additional supervisory 
training to motivate and support high levels of staff performance and a 
high performance culture across the agency. Part of the requested 
funding will be used for Workforce Performance Management advisory and 
support services, to ensure that supervisors know how to set 
appropriate performance expectations for employees, provide performance 
feedback, and effectively evaluate performance. We are also requesting 
funding for Senior Leadership Development, to develop and implement a 
pilot program to prepare current middle management for positions at the 
senior managerial level. Currently 50 percent of the Library's senior-
level staff is eligible for retirement.
    Question. Is the Library's Office of Opportunity, Inclusiveness, 
and Compliance adequately staffed? How is diversity at the Library?
    Answer. In 2008 the Library began a process of reorganizing its 
Office of Workforce Diversity to develop a more responsive and 
efficient operation. The Office of Opportunity, Inclusiveness, and 
Compliance (OIC) is now structured and funded in a manner consistent 
with Federal best practices, based on the results of an Inspector 
General review.
    A talented and diverse workforce is at the heart of the Library's 
vision for the future and a key component of the Librarian's management 
agenda and strategic plan. The current workforce includes slightly more 
than 3,600 employees. These employees represent every race and gender 
and speak a collective total of more than 50 different languages. As of 
December 31, 2009, the Library's workforce consisted of 56 percent 
women and 44 percent minorities. This diversity is consistent with 
strong and ongoing efforts to train and nurture the workforce, 
including annually rating Library managers on their demonstrated 
commitment to leverage diversity in their organizations. The OIC is 
working on a comprehensive diversity report to be issued by the end of 
fiscal 2010. The Library is working to ensure OIC's efforts and human 
resource strategies are complementary in development of the 5-year 
human capital plan. This human capital plan, when finalized, will 
contain clearly defined strategies for continuing to improve diversity 
at the Library and specific performance indicators to measure results 
and further enhance accountability.

                                TWITTER

    Question. I understand that Twitter recently agreed to donate its 
digital archive of public tweets to the Library of Congress. What is 
the relevance of this collection?
    Answer. As the keeper of the mint record of American creativity, 
the Library has over time collected works in whatever form that 
activity is expressed, most recently digital. The Twitter archive is a 
new form of communication with world-wide participation. Scholars today 
and in the future will mine the data set, researching a vast number of 
subjects and trends. A number of researchers have already expressed 
interest in gaining access to the material. The Twitter collection 
provides an important opportunity to learn more about preserving large 
research data sets.
    Question. Will this donation result in additional maintenance costs 
to the Library?
    Answer. We estimate that a small team will be able to work out the 
details of handling the Twitter archive over the next 6 months. The 
cost of tape storage and equipment to operate the tapes, based on 5 
terabytes of data per year, is estimated to be $3,000 the first year 
and an additional $1,000 for succeeding years and can be handled within 
our existing technical infrastructure. Because accepting and preserving 
collections are part of regular staff responsibilities, we do not 
anticipate additional staff costs. Once the Library completes an 
assessment of privacy and access issues related to this archive, it is 
likely that additional costs will be identified to make the collection 
accessible.

                               COPYRIGHT

    Question. Your fiscal year 2011 request includes an additional 5 
FTE for the Copyright Office. What are these additional personnel 
needed for?
    Answer. Three FTE's are to support of eCO, the backbone technology 
system for Copyright Office operations. The FTE will expand our 
technical capabilities in database management, software development, 
and project management. Two FTE's will oversee the Licensing Division's 
newly reengineered technology operations. Work on reengineering 
Licensing Operations begins in early Summer 2010, with system 
implementation scheduled for a year later. With the envisioned web-
based licensing submissions and electronic processing, the Licensing 
Division will need technical support. As the Licensing Division is 
self-funded, this would not impact the Library of Congress Federal 
appropriation.
    Question. What is your current backlog of copyright applications 
waiting to be processed?
    Answer. As of May 16, 2010 the backlog of claims awaiting 
processing is approximately 317,000.
    Question. How effective is your new paperless registration system? 
What percent of applications do you currently receive online vs. in the 
mail?
    Answer. eService, the Copyright Office online registration system, 
is very effective. Currently we receive 75 percent of our weekly 
submissions through electronic filing. As we improve our online 
systems, we expect electronic submissions to increase.

                         INFORMATION TECHNOLOGY

    Question. Dr. Billington, you received $15 million in fiscal year 
2010 for technology infrastructure upgrades for the Library. Can you 
update the subcommittee on your use of these funds? What has the 
Library been able to accomplish with this large investment of 
resources?
    Answer. The long-term vision for this funding is, by 2016, to 
acquire, preserve, and deliver important cultural, legislative and 
copyright information online that is reliable and authentic; where 
anyone can find what is meaningful to them through a set of updated 
online navigation approaches and tools. In fiscal 2010, funding is 
being invested in three broad areas to support this vision:
  --$9 million in the core technology: the hardware, operating 
        software, and network devices needed to support the Library's 
        three data centers. This includes: $7 million in equipment and 
        software to improve the network, storage, back-up and restore, 
        and continuity of operations technologies and facilities to 
        provide the infrastructure for content management and content 
        delivery; $1.4 million for services to support the 
        implementation of the new equipment and software; $0.6 million 
        for maintenance for the new equipment and software;
  --$3.5 million in new software for content management that 
        restructures the underlying data for better searching (metadata 
        and data ontologies), including legislative information data 
        dictionaries, establishment of data relationships and patterns 
        (including search & navigation patterns), data relationship 
        tools and metadata creation tools, and linking of computing 
        functionality to data sets; digital content ingest, including 
        content integrity preservation, and reusable, modular, flexible 
        and scalable ingest and management tools and services
  --$2.5 million in web architecture development and open source 
        software for the presentation and delivery of content online, 
        on mobile devices, and through easy-to-use interfaces for the 
        user.
    The Executive Committee approved the core technology investment 
plan in December, 2009. To date, requisitions have been submitted for 
all of the $9 million in core technology investment. An investment plan 
and requisitions have been prepared for the $3.5 million for new 
software for content management. The enterprise-wide IT Steering 
Committee (the LOC IT capital investment management board) reviewed 
this plan on May 25. The investment plan for web architecture 
development and open source software for presentation and delivery of 
content online has not been finalized. This $2.5 million plan will 
undergo review by both the Web Governance Board and the IT Steering 
Committee.

                          INVENTORY MANAGEMENT

    Question. You have included $1 million in your request for 
Inventory Management. What will this cover? Are all items in the 
Library's collections currently ``inventoried?''
    Answer. The funding will cover 23 contractual staff who will 
continue the inventory of the Library's book and periodical 
collections. The staff will also inventory the special format materials 
that will be transferred to Modules 3 and 4. Since the start of the 
inventory program in fiscal 2002, more than 4 million items have been 
inventoried. In the general, area studies, and Law Library collections 
of books and bound periodicals, there are approximately 17 million 
items, leaving approximately 13 million that need to be inventoried. 
For the special format collections, e.g., manuscripts, maps, sheet 
music, and prints and photographs, inventory is also essential to 
capture information on what we have and where the items are at any 
given point in time, and to ensure effective access and retrieval.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

                      FORT MEADE STORAGE MODULE 5

    Question. Is the $16.9 million requested for Storage Module 5 the 
total cost for design, construction and complete outfitting of the 
storage unit, so that it would be ready to accept collections for 
storage? Will additional funding be needed for this storage module in 
future fiscal years?
    Answer. The $16.9 request for Storage Module 5 will cover 
construction and outfitting costs. No additional funding will be 
required by the Library of Congress to make Module 5 fully operational; 
however, annual funding of $1 million for ongoing collections inventory 
management is necessary--a fiscal 2011 funding request--to ensure items 
transferred to Fort Meade have accurate online records and to continue 
the inventory of the collections remaining on Capitol Hill. The 
Architect of the Capitol will require a funding increase to maintain 
the facility and for additional utility charges. Module 5 design is 
complete but will need to be updated to incorporate lessons learned 
from Modules 1-4, in conjunction with the solicitation of construction 
contract proposals.
    Question. If only partial funding is provided in fiscal year 2011, 
will it be possible for the Library to begin work on this storage unit 
and then complete it when the balance of funds are available; or does 
the Library need the total amount in full before it can begin work on 
this unit?
    Answer. For this construction request, the full amount would be 
necessary at the time of the construction contract award. (This 
response has been coordinated with the Architect of the Capitol.)

                REQUESTED FTES--HUMAN RESOURCES SERVICES

    Question. Why is it necessary to have three additional FTE's for 
the Human Resources Supervisor development program and two additional 
FTE's for the Human Resources Staff development program? Are these 
staff development programs new, or are they being expanded in some way 
that requires additional personnel?
    Answer. Of the total staff development request of $1.6 million, a 
quarter of it ($408,000) is for two GS-12 career planning specialists 
and contractual support, to provide career planning services for the 
entire Library. This funding would enable Human Resource Services to 
expand on staff development services they already provide in response 
to a need articulated by the Library's labor organizations for 
professional career planning services.
    Question. Are there certain elements of the supervisor development 
program and the staff development program that can be combined so as to 
achieve efficiencies in the organization, operation, and cost of the 
programs?
    Answer. Of the three FTES requested for supervisory development, 
one is for the coordination of supervisor development training 
services; the other two are to staff the workforce performance 
management program. Both of these functions currently are being 
provided on a skeletal level because of the absence of dedicated 
personnel. The Library's current performance management practices, 
coordinated by a staff of one, were flagged as a critical weakness in 
the recent Employee Survey. The five requested positions address 
separate operational needs, all essential, in the Library's human 
resources program.
    Question. What are the goals of the supervisor and staff 
development programs?
    Answer. Goals of staff and supervisor development services are to 
enable the Library to provide consistently outstanding services to an 
expanding customer base, within a dynamic work environment involving 
the use of wide-ranging new technologies, with fewer and fewer staff.
    Question. What is the anticipated outcome from this investment?
    Answer. Additional funding will enable the Library to address 
critical training and development gaps, increasing efficiency and 
effectiveness across the entire organization.

                         CAPITOL POLICE MERGER

    Question. Last year we completed the merger of the Library of 
Congress security officers with the U.S. Capitol Police. From the 
Library's perspective, how were the police merger and the transition of 
personnel, resources, and police mission handled? Was this a smooth 
transition?
    Answer. Overall, the police merger and transition of personnel, 
resources, and police mission were successfully accomplished.
    Question. Since the police merger, have the Capitol Police and the 
Library of Congress worked through the remaining issues related to the 
reimbursement of overtime for Library events?
    Answer. The two agencies have worked out the key details for the 
Library's reimbursing the USCP for supporting Library special events. 
The USCP and LOC Memorandum of Understanding (MOU) will be amended to 
reflect the reimbursement agreement. Further discussions are occurring 
to improve coordination and to streamline procedures.
    Question. Are there any remaining police coverage issues that the 
Library has yet to resolve with the Capitol Police? If so, what are 
those issues?
    Answer. The unresolved issues include:
  --Jurisdictional issues between the Library's Office of the Inspector 
        General (OIG) and the USCP.
  --Formalization of information-sharing between the Library and the 
        USCP.
  --Finalization of the Library's special events funding coordination 
        and procedural matters.
    Question. Since the police merger, have there been any jurisdiction 
issues related to the collections or building regulations? How have 
those been resolved?
    Answer. Unresolved are jurisdictional issues related to the 
investigation of criminal activity occurring at the Library, such as 
suspected theft and malicious damage to Library collections and 
property. The Library's OIG has proposed that an MOU be formalized 
between the OIG and the USCP.

                        CRS SERVICES EVALUATION

    Question. The Legislative Branch conference report for fiscal year 
2010 concurred with the House report language regarding a CRS services 
evaluation, which requested that the Director of CRS ``conduct a formal 
evaluation of how well its current staffing models and procedures meet 
user needs.'' Has CRS conducted this evaluation? Where is CRS in that 
process?
    Answer. The consulting firm LMI will assess communications 
mechanisms, including a ``Member Advisory Committee'', and make 
recommendations on the best options to promote optimal communication 
between CRS and Members of Congress. LMI will use the client feedback 
data they receive and best practices research in developing its 
recommendations on communications mechanisms. No decision on new 
mechanisms will be made until the LMI evaluation is completed.

                     CRS MEMBER ADVISORY COMMITTEE

    Question. The House report language that was included in the fiscal 
year 2010 Conference Report also directed CRS to ``consider creation of 
a new mechanism such as a Member Advisory Committee which would allow 
routine discussions between CRS leadership and users.'' Has CRS created 
a Member Advisory Committee? If so, please explain how the committee is 
intended to work, or is working.
    Answer. The consulting firm LMI will assess communications 
mechanisms, including a ``Member Advisory Committee'' and make 
recommendations on the best options to promote optimal communication 
between CRS and Members of Congress. LMI will use the client feedback 
data they receive and best practices research in developing its 
recommendations on communications mechanisms. No decision on new 
mechanisms will be made until the LMI evaluation is completed.

                      DIGITAL TALKING BOOK PROGRAM

    Question. Please give us an update on the Digital Talking Book 
program.
    Answer. The Library is on schedule with both digital talking book 
player and book production. To date approximately 204,000 machines have 
been produced, with production ongoing at a level of 20,000 players per 
month. More than 857,000 copies of nearly 2,169 digital titles have 
been produced and distributed on flash cartridge. A download site now 
offers nearly 19,000 digital book titles and grows daily. The one-
millionth book was downloaded in March 2010.

                         CONCLUSION OF HEARINGS

    Senator Nelson. So thank you, and the subcommittee stands 
in recess. Thank you.
    [Whereupon, at 4:40 p.m., Thursday, April 29, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
